<html>
<title> - UNIONIZATION THROUGH REGULATION: THE NLRB'S HOLDING PATTERN ON FREE ENTERPRISE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  UNIONIZATION THROUGH REGULATION: THE NLRB'S HOLDING PATTERN ON FREE 
                               ENTERPRISE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2011

                               __________

                           Serial No. 112-66

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
71-079                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2011....................................     1
Statement of:
    Haley, Nikki, Governor of the State of South Carolina; and 
      Alan Wilson, attorney general of the State of South 
      Carolina...................................................   136
        Haley, Nikki.............................................   136
        Wilson, Alan.............................................   138
    Ramaker, Cynthia, employee, the Boeing Co.; Neil Whitman, 
      president, Dunhill Staffing Systems; Lafe Solomon, acting 
      general counsel, National Labor Relations Board; Philip 
      Miscimarra, labor attorney, Morgan, Lewis & Bockius LLP; 
      and Julius Getman, professor, Earl E. Sheffield Regents 
      Chair, University of Texas School of Law...................    40
        Getman, Julius...........................................    81
        Miscimarra, Philip.......................................    63
        Ramaker, Cynthia.........................................    40
        Solomon, Lafe............................................    56
        Whitman, Neil............................................    50
Letters, statements, etc., submitted for the record by:
    Getman, Julius, professor, Earl E. Sheffield Regents Chair, 
      University of Texas School of Law, prepared statement of...    83
    Gowdy, Hon. Trey, a Representative in Congress from the State 
      of South Carolina, letter dated June 17, 2011..............     9
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
        Jim Albaugh interview....................................   111
        Letter dated June 14, 2011...............................   102
        Letter dated June 16, 2011...............................   146
        Prepared statement of....................................     4
        Prepared statements of Meredith Going and Dennis Murray..    21
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, letter dated June 16, 2011..........    33
    Miscimarra, Philip, labor attorney, Morgan, Lewis & Bockius 
      LLP, prepared statement of.................................    65
    Ramaker, Cynthia, employee, the Boeing Co., prepared 
      statement of...............................................    43
    Solomon, Lafe, acting general counsel, National Labor 
      Relations Board, prepared statement of.....................    58
    Whitman, Neil, president, Dunhill Staffing Systems, prepared 
      statement of...............................................    53
    Wilson, Alan, attorney general of the State of South 
      Carolina, prepared statement of............................   140


  UNIONIZATION THROUGH REGULATION: THE NLRB'S HOLDING PATTERN ON FREE 
                               ENTERPRISE

                              ----------                              


                         FRIDAY, JUNE 17, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                              North Charleston, SC.
    The committee met, pursuant to notice, at 12:05 p.m., at 
the Charleston County Council Chambers, the Lonnie Hamilton 
Building, 4045 Bridge View Drive, North Charleston, SC, Hon. 
Darrell E. Issa (chairman of the committee) presiding.
    Present: Representatives Issa, Gowdy, Ross, Farenthold, 
Maloney, Norton, Kucinich, and Braley.
    Also present: Representatives Wilson and Scott.
    Staff present: Robert Borden, general counsel; John 
Cuaderes, deputy staff director; Linda Good, chief clerk; 
Christopher Hixon, deputy chief counsel, oversight; Justin 
LoFranco, deputy director of digital strategy; Jeff Solsby, 
senior communications adviser; and Sharon Meredith Utz, 
research analyst.
    Chairman Issa. Can I ask everyone to please be seated? This 
committee will come to order.
    Before we begin, I know a lot of people out there came from 
far and wide to be here. The only thing I would ask is that you 
respect that there are no winners, no losers, no right side, 
and no wrong side in a congressional hearing. So I hope you 
will understand that we don't want to hear boos. We don't want 
to hear applause. If you will do that for us, we would sure 
appreciate it.
    Additionally, it is a normal rule of this committee that 
there is only an opening statement for the chairman and ranking 
member, and that is tradition. What we are going to do, though, 
is do an opening statement for chairman and ranking member, and 
then I am asking unanimous consent for additional 2 minutes for 
each Member that wants to make an opening statement.
    Without objection, so ordered. And we will begin.
    The Oversight Committee mission is to secure fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent. And second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers because taxpayers have a right to know what they 
get from their Government. We will work tirelessly, in 
partnership with citizen watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    I would ask unanimous consent that two colleagues from 
South Carolina, Mr. Joe Wilson and Mr. Tim Scott, who are not 
members of the committee, be allowed to participate fully 
today.
    Without objection, so ordered.
    I want to begin by thanking the Charleston County Council, 
whose facilities are being so generously provided today, for 
their help in making this hearing possible.
    And Mr. Scott, I want to thank you for the use of your 
chair, which you once filled here in that role.
    I also want to recognize Mr. Gowdy, an active member of 
this committee and someone who has spotlighted this behavior 
and this issue from the time AmericanJobCreators.com became 
directly aware of it.
    Today's hearing is about the effect that NLRB's acting 
general counsel's decision to bring suit against the Boeing Co. 
is having on thousands of jobs in South Carolina. It is the 
fundamental responsibility of the National Labor Relations 
Board to protect the rights of employees and employers and to 
prevent practices that will harm the general welfare of 
workers, businesses, and the U.S. economy.
    It is this chair's opinion that on all of these points, 
NLRB action may have failed. The jobs of thousands of workers 
at what is today a nonunion worksite in South Carolina are at 
risk.
    The investment Boeing put into the South Carolina facility, 
valued at more than $1 billion, is now in jeopardy, and 
production of portions of 835 planes, most of which will be 
exported, that have already been ordered is now in jeopardy. 
Timely delivery is essential, and without this facility, it is 
unlikely commitments will be met.
    And finally, Mr. Solomon's decision, which has been 
described in ways that I am going to leave out of my opening 
statement, could, in fact, lead to repercussions in America's 
competitiveness and in decisions by other businesses to locate 
in right-to-work States or, in fact, foreign companies to 
locate in America at all.
    Often, when you believe that you are helping one party, you 
may be hurting the party you intend to help. Seattle's economy, 
which is very good in aerospace, may be hurt by decisions not 
to allow new facilities be put there in the future for fear 
that they could not be expanded on in the future in other 
areas.
    As an entrepreneur and business owner myself, I know well 
the decisionmaking process that goes into decisions about where 
to locate a plant, warehouse; when to hire employees; and what 
to invest to grow your company and jobs.
    Evidence suggests Boeing's decision to build the new 
assembly plant in South Carolina was simply an act of 
managerial discretion and not an effort to discourage employees 
from engaging in protected activities under the National Labor 
Relations Act. If Boeing's actions were lawful and proper and 
made on the basis of multiple factors and in the best interest 
of the company, its workers, and the people of South Carolina, 
then why has the NLRB acting general counsel sued them?
    Moreover, how can the President expect the private sector 
to create jobs and put Americans back to work if his appointees 
continue to use the regulatory process to keep putting 
impediments in their path? Why would the administration stand 
in the way of reindustrialization of the American work force 
and strengthening one of the major industries where we still 
have a competitive global advantage?
    Any appearance that Mr. Solomon's decision was tailored to 
reward the President's powerful financial and political 
supporters--big labor--would be disturbing. The American people 
deserve to know if so-called independent regulatory agencies 
are exceeding their legal authority to pursue a partisan 
agenda.
    And finally, I want to make the point about the difficulty 
the committee had in securing Mr. Solomon as a witness. 
Fortunately, he is here today. And for that, I thank you.
    But he is here because of a compulsory process, and I am 
increasingly concerned that the use of subpoena, which has not 
been historically needed, may be a sign that there is a 
constitutional challenge forming between the Congress's 
legitimate oversight and the executive branch, including their 
quasi-independent agencies.
    And with that, I recognize the gentlelady from New York for 
her opening statement.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.001
    
    [GRAPHIC] [TIFF OMITTED] T1079.002
    
    [GRAPHIC] [TIFF OMITTED] T1079.003
    
    Mrs. Maloney. Thank you so much, Mr. Chairman.
    And I thank all my colleagues for being here. It is 
wonderful to be in South Carolina, in Charleston. And welcome 
to all of our witnesses.
    We are gathered here today at a time when employment is the 
most crucial issue facing our country. Roughly 13\1/2\ million 
Americans are unemployed. The labor force participation rate is 
still at a low not seen in over a generation.
    The focus of our inquiry today should be how Republicans 
and Democrats can work together to encourage businesses to 
invest and put Americans back to work in South Carolina and 
elsewhere in this country.
    This case is not about creating jobs in South Carolina. 
This case is not about Everett, Washington, workers against 
Charleston workers. This case is about a company thinking it is 
above the law because it is a multibillion dollar, 
multinational corporation.
    If Boeing moved jobs into a nonunion factory 10 miles down 
the road from its Everett plant because workers have protested 
working conditions, its decision would be just as illegal. But 
that is not why we are here. Instead, this hearing actually 
concerns the economic consequences of a potential illegal act 
allegedly committed by the Boeing Co. and the legitimate law 
enforcement action taken this week by the National Labor 
Relations Board to sanction it.
    At issue in the Boeing case is whether Boeing illegally 
retaliated against American workers for engaging in activity 
that Congress has chosen to protect since 1935 and FDR, the 
right to protest. No worker benefits for allowing a company to 
explicitly break the law.
    Just as it is illegal to discriminate against workers based 
on their race or gender, it is also illegal to make business 
decisions that discriminate against workers for exercising 
their legal rights. The protected rights at stake in the Boeing 
case apply to workers regardless of whether or not they are 
unionized, whether or not they live in South Carolina or 
anywhere in our great Nation, and, of course, regardless of 
politics.
    Boeing is a very important company to our country. With its 
workers, they make outstanding products. They export. They are 
our biggest exporter.
    I support creating great jobs and reducing unemployment 
across the United States, but I also believe that Boeing is not 
above the law. And as Members of Congress, we should not set 
aside the law to give preferred treatment to any one company.
    The NLRB is part of our justice system, and it should be 
given the opportunity to do justice in the Boeing case. That is 
the only way to ensure that all workers, even those here 
working for Boeing in South Carolina, are protected.
    That is why I am very concerned about the timing of this 
hearing and the chairman's insistence on it and his insistence 
that Mr. Lafe Solomon, the general counsel and chief prosecutor 
of the case, testify while the Boeing hearing is currently 
underway. His testimony today raises serious concerns about the 
due process rights of litigants and the integrity of the Boeing 
proceeding.
    Mr. Chairman, as you know, I am a strong believer in the 
importance of congressional oversight. But I do not believe 
that we should interfere with active prosecutions under the 
guise of oversight. We must act prudently and respect the 
judicial process. I hope that you will exercise your discretion 
as chair of the committee and direct the Members today to avoid 
asking questions of Mr. Solomon which could, in any way, put a 
fair trial and due process at risk.
    If you do not, I believe you may, intentionally or not, 
permit the legal process to be tainted by political 
interference. This simply does not serve any legitimate goal of 
this committee or the U.S. Congress.
    If, however, you take steps to protect the integrity of the 
legal process and prevent an appearance, then I am confident 
that today's hearing can shed some light on how to ensure that 
all workers, whether in South Carolina or anywhere else in our 
great country, can find employment and continue to have the 
ability to bargain for rights and engage in protected activity.
    Today, the middle class is in serious decline with wages 
for the majority of workers stagnant and increasing numbers of 
workers without access to health insurance and pension 
benefits. There is no question that unions have contributed to 
building the middle class in our country.
    For instance, according to the Federal Bureau of Labor 
Statistics, union workers are more likely than nonunion workers 
to be covered for health insurance and receive pension benefits 
and paid sick leave. We cannot ignore the critical role that 
unions have played in building America by helping improve the 
wages and working conditions of union and nonunion jobs alike.
    In closing, I want to emphasize again that this hearing 
puts at risk trying to use politics to influence the work of an 
independent Federal agency. To intimidate is to affect the 
outcome of a judicial proceeding. This is very dangerous to our 
democracy. If we believe in the rules of law, we have to be 
governed by due process institutions have created to resolve 
these issues in a fair manner.
    Again, I thank you for yielding to me and for calling this 
hearing.
    Chairman Issa. I thank the gentlelady.
    We now recognize a local hero, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman, for your leadership in 
this area.
    I also want to thank my colleagues, those that are in the 
audience--our colleagues from State government; speaker of our 
house; Attorney General Henry Brown, who served so ably in 
Congress for many years; my two colleagues who are on the dais 
with me, Representative Wilson, Representative Scott; and we 
speak on behalf of those of our colleagues who are not here.
    With that in mind, Mr. Chairman, I would ask unanimous 
consent to place two letters from our Senators--Senator Graham 
and Senator DeMint--into the record.
    Chairman Issa. I have them. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.004
    
    [GRAPHIC] [TIFF OMITTED] T1079.005
    
    [GRAPHIC] [TIFF OMITTED] T1079.006
    
    [GRAPHIC] [TIFF OMITTED] T1079.007
    
    [GRAPHIC] [TIFF OMITTED] T1079.008
    
    Mr. Gowdy. Mr. Chairman, the purpose of the National Labor 
Relations Act is to promote the full flow of commerce, to 
prescribe the legitimate rights of both employees and employers 
in their relations affecting commerce, and to protect the 
rights of the public in connection with labor disputes 
affecting commerce.
    In other words, the NLRA is supposed to strike a proper 
balance between the rights of employees, employers, and the 
public. But you would never know that for the actions of the 
NLRB. Under the guise of enforcing the NLRA, the NLRB has 
essentially become a sycophant for labor unions.
    At a time when union membership is at a historic low, the 
NLRB seeks to give unions a historically unprecedented level of 
influence. Exhibit A is the NLRB's recent interaction with the 
State of South Carolina.
    Not only did the NLRB threaten to sue the State of South 
Carolina for seeking to memorialize in our constitution 
something as revolutionary as the right to a secret ballot, 
this administration--not content with class warfare, not 
content with generational warfare--now seeks to engage in 
regional warfare, pitting workers in Washington State against 
those who seek jobs in South Carolina.
    Boeing has made airplanes in Washington for several 
decades. And during the course of that time, there have been at 
least four work stoppages which threatened Boeing's ability to 
deliver airplanes to customers in a timely fashion. So Boeing 
did what any responsible company would do. It looked to see 
where best to start a new, separate, distinct line of work on 
the 787 Dreamliner.
    The union didn't like that, and they found a willing ally 
in the NLRB. The NLRB filed a complaint against Boeing. And lay 
aside the demonstrably false allegations of the complaint, lay 
aside the unprecedented legal analysis, the NLRB wants to make 
Boeing shut down its South Carolina facility, get rid of the 
1,000 employees that have been hired, and return the work to 
Washington State.
    The spokesperson for the NLRB is quoted as saying this. 
``We are not telling Boeing they can't build planes in South 
Carolina. We are talking about one specific plane, three planes 
a month. If they keep those planes, those three planes a month 
in Washington State, there is no problem.''
    Let that sink in for a second. An unelected executive 
branch entity spokesperson is telling a private company what it 
can make, where it can make it, and how much of it it can make. 
According to the reasoning of the NLRB, it is fine for a new 
company to consider wage rates, work stoppages, and take the 
full panoply of factors into consideration in deciding whether 
to pick a union State or a right-to-work State. But a company 
who has already planted a flag in a union State cannot dare 
consider starting a new line of work in a right-to-work State.
    And make no mistake, this is a new line of work. Not one 
single employee has lost a job in Washington State. Not one 
single employee has suffered an adverse consequence as a result 
of Boeing's decision to start a separate, distinct line of work 
in South Carolina.
    Despite congressional intent and clear Supreme Court 
jurisprudence, union leadership and unelected NLRB attorneys 
are now seeking to become managing partners in the business 
affairs of American companies. South Carolina is confident 
Boeing will be vindicated in a court of law. However, the 
NLRB's jurisdictional overreach, coupled with its brazen 
activism, threatens the future allocation of work by American 
companies.
    South Carolinians want to work, Mr. Chairman. We need the 
jobs. We want to meet our familial and societal obligations.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank you.
    We now recognize the gentlelady from the District of 
Columbia, Ms. Norton, for her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I wish I could say to my good friend, the chairman, that I 
am pleased that he has called today's hearing.
    Chairman Issa. I am pleased to have you here. [Laughter.]
    Ms. Norton. But, Mr. Chairman, today's hearing makes 
unfortunate history with an unprecedented appearance of an 
abuse of the rule of law and constitutional due process. 
Congress has obligatory oversight responsibilities over the 
National Labor Relations Board and the National Labor Relations 
Act. But when it threatens to issue a compulsory subpoena of 
decisionmaking counsel in the middle of a legal proceeding, it 
lends an appearance of intimidation.
    Among other subjects, I have taught labor law as a tenured 
professor of law at Georgetown University Law School and know 
of the difficulty and close calls of these fact-laden cases and 
of the pains Congress took to create an independent general 
counsel and an independent board to avoid the appearance of 
seeking to influence the outcome of a legal proceeding while it 
is in progress and before any decision on the merits has been 
made.
    How else to interpret actions by Members of the House and 
Senate, including threatening subpoenas, demanding the 
privileged work product of counsel, and threatening to defund 
the essential court here, the National Labor Relations Board, 
before it has made a decision or even heard the case.
    I may be a Member of Congress, but I am still a member in 
good standing of the bar and an officer of the court. I have no 
basis for a judgment on the merits of the ongoing proceeding in 
my role as a Member of Congress, and I will not use this 
hearing to try to influence the outcome.
    I hope that following this hearing, this committee may once 
again embrace the long tradition of Republican and Democratic 
chairmen alike to avoid the possibility of appearing to taint a 
legal proceeding by engaging in a hearing while the proceeding 
is ongoing.
    And thank you, Mr. Chairman.
    Chairman Issa. I thank the gentlelady.
    We now recognize the gentleman from Texas, Mr. Farenthold, 
for his opening statement.
    Mr. Farenthold. Thank you, Mr. Chairman.
    It is good to be in South Carolina. I am here as a member 
of the Government Oversight and Reform Committee and also as a 
concerned Texan, a State that, like South Carolina, has worked 
hard to create a business-friendly environment with low taxes, 
reasonable regulations, and a great work force and a great 
place to live.
    Governor Perry and the legislature in the State of Texas 
have worked hard to create much the same environment, and these 
issues that affect South Carolina affect a whole lot of other 
States as well. In fact, the State of Texas Attorney General 
Abbott, along with 16 other attorney generals, have filed an 
amicus brief in this proceeding.
    And we have States like Alabama, Arizona, Florida, Georgia, 
Idaho, Kansas, Nebraska, Oklahoma, South Dakota, Utah, 
Virginia, and Wyoming. And they were also joined by non right-
to-work States like Colorado and Michigan. I think this is a 
telling feature because this decision could have huge potential 
impact on economic development.
    In right-to-work States, it would create an environment 
where companies are afraid to create new lines of business and 
expand into those States. And in States that are non right-to-
work States, it creates the impression that, well, we don't 
want to startup in those States because as we grow, we are 
stuck in those kind of States. And that is absolutely the wrong 
thing for the Federal Government to be doing, telling private 
businesses where they can and cannot locate, where they can and 
cannot grow their business.
    We are in a climate right now in this Government where 
regulatory and quasi-regulatory agencies are out really trying 
to stop growth. I am deeply concerned that there is a concerted 
effort on the part of this administration and its regulatory 
agencies to punish States that have different philosophies than 
they do, that believe in balanced budgets, that believe in 
lower taxes and believe businesses are the place to create jobs 
for people.
    And this is a dangerous precedent that is being set, and 
that is one of the reasons we are here today. It is not trying 
to influence the outcome of something. It is trying to say it 
never should have been started in the first place.
    Thank you very much, and I yield back.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentleman from Cleveland, Ohio, Mr. 
Kucinich, for his opening statement.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I want to associate myself with the remarks of Eleanor 
Holmes Norton with respect to this procedure. I trust the chair 
will take into account our concerns and will conduct himself 
accordingly.
    But I am concerned that the workers' rights, which the NLRB 
decided have been violated by Boeing, would be further violated 
through any infringement on right to due process, equal 
protection of the law, right to fair trial through these 
proceedings. But again, that is in the hands of the chair.
    The question that faces us at its core--did Boeing 
unlawfully retaliate against its Washington State workers, who 
were lawfully exercising their right to strike? Boeing's 
executive vice president Jim Albaugh told the Seattle Times, 
when speaking of a move, ``The overriding factor was not the 
business climate, and it was not the wages we are paying people 
today. It was that we can't afford to have a work stoppage 
every 3 years.''
    Boeing planned to transfer jobs away from Washington State 
and a unionized work force in the Seattle area to a nonunion 
facility in South Carolina. The National Labor Relations Board 
found that Boeing violated the National Labor Relations Act 
when it made coercive statements and it threatened its 
employees for engaging in legally protected activity, strikes, 
and for transferring work from the same work force in order to 
avoid the possibility of those workers engaging in protected 
activity in the future.
    There are 3,300 people currently working on the 787 
Dreamliner in Everett. This operation is supposed to scale down 
as the South Carolina plant is fully operational. But the 
scaling down is, in effect, a transfer of work, which has been 
correctly identified as retaliatory in violation of the 
National Labor Relations Act.
    I would say that it is not the NLRB, but it is Boeing that 
has pitted one State against the other. It is Boeing that is 
pitting one group of workers against another at a time of great 
economic uncertainty and at a time when corporate profits 
generally are rising during a jobless recovery.
    I want to say, Mr. Chairman, I respect my colleagues on the 
other side of the aisle who are here fighting for their 
constituents. I respect that. That is what you are supposed to 
do.
    But we have a deeper question here, and that is did Boeing 
violate the law? And if it did, are there remedies available to 
the workers under that law?
    And if the answer comes to be that it did, then the 
remedies that are put to Boeing, it would be unfortunate if the 
people in South Carolina would have to suffer. But Boeing is 
going to have to have that on their account because this is 
something that really relates to what the law is.
    And finally, Mr. Chairman, Boeing--I think we ought to be 
concerned about keeping jobs in this country. And it is 
inevitable that Boeing is going to have to consider calling 
work back from overseas when they outsource it and increase the 
production curve and the delivery curve of their Dreamliner. So 
we want the work to come back, and we want to make sure that 
workers everywhere have a chance to participate in a renewed 
American manufacturing climate.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    Pursuant to our rules, we will next go to Mr. Braley, as a 
member of the committee.
    Mr. Braley. Thank you, Mr. Chairman.
    I would like you all to look at the seal behind the 
chairman because it has what the people of the County of 
Charleston felt were important principles to promote when they 
formed this government. And you will see up there ``pro bono 
public''--``for the public good.''
    And unfortunately, this hearing misses the point that the 
purpose of a National Labor Relations Board investigation is to 
determine what is in the public good when the NLRB exercises 
its constitutional responsibility to investigate whether labor 
laws have been violated, in this case by Boeing, and, if so, 
what a proper remedy for those violations should be.
    And if you remember only one thing, you need to think about 
not just what due process means to the parties to this 
complaint, but what it means to you and your families and your 
friends and your neighbors. Because this goes much deeper than 
an NLRB hearing, and the problem with this hearing is it 
involves an unprecedented improper interference by Congress 
with a pending adjudicative proceeding as defined by the 
Federal statute and based on years of precedent.
    So what we should be talking about is not what the person 
who is in charge of prosecuting that case is doing, but 
whether, in fact, Boeing broke the law and what should be an 
appropriate remedy.
    One of the things that you learn in your first days of 
class in administrative law is that administrative agencies act 
in one of two ways. One is by rulemaking, where there is an 
opportunity for expansive public input and congressional input, 
and all of us engage in that on a constant basis.
    But the other type of action by agencies is called 
adjudication, and it is just like a judicial proceeding. And 
just as you aren't supposed to tamper with juries who are 
deciding the facts in a case in a court, you aren't supposed to 
tamper with witnesses who appear in front of that court, even 
though they aren't involved in the process of deciding the 
outcome of that case.
    So what we should be talking about is things that are the 
basis of our Constitution and how this country was founded. Let 
me read this to you.
    ``He has obstructed the administration of justice by 
refusing his assent to laws for establishing judicial powers. 
He has made judges dependent on his will alone for the tenure 
of their offices and the amount and payment of their 
salaries.''
    That is in our Declaration of Independence because our 
Founding Fathers didn't want people interfering with judicial 
processes, which is what was happening in England. And that is 
why, when we are talking and the chairman mentions the threat 
to reindustrialization of the American work force, folks, we 
are involved in the race to the bottom right now.
    We had 397,000 factories in this country at the beginning 
of the last decade. We only have 343,000 now. That is a closure 
of 54,000 factories, a loss of 5 million jobs. That means every 
day 15 factories are shutting down. That is what we should be 
talking about today.
    Chairman Issa. I thank the gentleman.
    We now go to another favored son here, Mr. Joe Wilson.
    Mr. Joe Wilson. Thank you, Mr. Chairman. And thank you for 
holding this North Charleston hearing.
    Indeed, this is unprecedented. What we are talking about is 
an unprecedented expansion of big Government determining where 
companies can locate their operations and employ citizens. But 
more importantly, right here, what we have is an assault on 
Boeing which kills jobs in South Carolina.
    And this is an issue very important, obviously, to the 
families of South Carolina, but it is important to all the 
people of the United States. I am really grateful to be here in 
that this is my birthplace--Charleston, America's historic 
city. I am very grateful that the people who will be working 
with Boeing are going to be working in a world-class community. 
That is why they have come here.
    And to be here with Congressman Tim Scott, who is the 
resident Member of Congress. We have our workhorse former 
Member of Congress, Henry Brown. Speaker of the House Bobby 
Harrell is here. The leadership of this community has just been 
so proactive, creating jobs.
    Charleston is such a fitting location for this hearing, Mr. 
Chairman, in that this is the home of Governor Jim Edwards. It 
was his leadership that recruited Michelin to South Carolina. 
We now have the North American headquarters in Greenville here 
in South Carolina. We have seven plants across South Carolina.
    In fact, in the district I represent in Lexington, over $1 
billion has been invested since 1979, creating thousands of 
jobs. So we have a record of recruiting industry.
    And of course, to be here at the Port of Charleston, this 
is a tribute to former Governor Carroll Campbell. He recruited 
BMW. And right here from Charleston, over 1 million BMWs have 
been exported around the world. And so, it is a real tribute.
    The reason that people and companies locate in South 
Carolina is that we have a capable, productive work force. We 
have a world-class technical college system. We have a 
welcoming climate. It is a meteorological climate that is mild. 
You can do business year round, and the people are warm.
    We are a right-to-work State that protects the rights of 
workers. And we have pro-business leadership in government with 
Speaker Harrell, with the senate president Glen McConnell, 
Democrats, Republicans working together, supportive of this 
expansion of Boeing to South Carolina.
    We welcome this, and I look forward to the testimony today. 
But the people of South Carolina are so supportive of creating 
jobs and creating opportunity for the families of South 
Carolina.
    Thank you.
    Chairman Issa. Mr. Scott, we now ask you to top all of 
those openings. [Laughter.]
    Since this is your town. You are recognized.
    Mr. Scott. Thank you, sir.
    I would like to start off by simply saying thank God for 
South Carolina, the home of common sense and the permanent home 
of the Boeing Corp., number one.
    Number two, it is obvious that the campaign season has 
begun. There is no question that we are in the process of 
seeing the beginning of a Presidential reelection campaign, as 
we find ways to fill the coffers in an attempt to use union 
workers and their dues as a way to create a winning combination 
for a Presidential campaign.
    Number three, on the issue of politics of intimidation, 
think of this, if you will. America's greatest exporter being 
brought to task not for the elimination of a single union job 
in Washington State, but for the addition, the increase, the 
creation of jobs, 1,000 jobs in South Carolina.
    Think of this for just a minute. The definition of 
intimidation is having the NLRB require the Boeing Corp. to 
spend hundreds of thousands, if not millions, of dollars 
defending a baseless lawsuit, a baseless complaint.
    Imagine, if you will, the workers in Washington State as 
they see 2,000 new employees since the announcement of the 
North Charleston plant, 2,000 new employees show up for work. 
That does not sound like retaliation.
    Think, if you will, that here in Charleston, North 
Charleston, we have had a $1 billion investment by the Boeing 
Corp., and now--and now we find ourselves having a complaint to 
be issued to solve a problem that simply does not exist.
    Why are we here today? How did we get here? In America's 
fragile recovery, during the midst of one of the most amazing 
recessions, at the verge of a double dip in the recession, we 
find ourselves telling the Boeing Corp. that they ought to 
figure out how to take these jobs to another country. Because 
make no mistake that the beginning of an interstate war, 
interstate war between Washington and South Carolina, between 
right-to-work States and union presence States, we find 
ourselves having a really important conversation.
    And the conversation is not about right-to-work versus not 
the right-to-work. It is not about Washington State or South 
Carolina, as it has been teed up. It is truly about whether or 
not we want American corporations doing business in America, 
or--or do we want to send more jobs to China?
    Do we, in fact, want the laws of our country to dictate the 
success of America's greatest corporations, or do we want other 
nations to decide and to determine the work force of America? 
This entire process is baseless. We find ourselves in the midst 
of a hearing that should not be. I do agree with that.
    Because if there was something warranted in this process, 
we should have addressed it. But simply said, this is a 
baseless complaint. We find ourselves in the midst of the 
campaign season. Using your tax dollars, using your tax dollars 
in an unprecedented way, to tell private companies where and 
how to create jobs.
    It is interesting that the seven planes that they are 
producing in Washington State, none of those jobs are moving. 
Those seven planes will be coming out. They have decided that 
they want an additional three planes a month. They looked far 
and wide, and they decided that the greatest work force in all 
of America here in North Charleston would be the place to have 
it.
    Thank you.
    Chairman Issa. I thank the gentleman. Albeit a little long, 
you did top everyone else. [Laughter.]
    I would now ask unanimous consent that the statements of 
Meredith Going Sr. and Dennis Murray II of the South 
Carolinian-based Boeing employees, who sought to intervene in 
this case involving Boeing Co., the International Association 
of Machinists, and the NLRB, be entered into the record.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.009
    
    [GRAPHIC] [TIFF OMITTED] T1079.010
    
    [GRAPHIC] [TIFF OMITTED] T1079.011
    
    [GRAPHIC] [TIFF OMITTED] T1079.012
    
    [GRAPHIC] [TIFF OMITTED] T1079.013
    
    [GRAPHIC] [TIFF OMITTED] T1079.014
    
    [GRAPHIC] [TIFF OMITTED] T1079.015
    
    [GRAPHIC] [TIFF OMITTED] T1079.016
    
    [GRAPHIC] [TIFF OMITTED] T1079.017
    
    [GRAPHIC] [TIFF OMITTED] T1079.018
    
    [GRAPHIC] [TIFF OMITTED] T1079.019
    
    Chairman Issa. I will now introduce our panel of witnesses. 
Oh, additionally, I would ask unanimous consent that all 
Members, both present and those who may join us, would have 7 
business days in order to put additional statements and 
extraneous material into the record.
    Without objection, so ordered.
    We now recognize our first panel of witnesses.
    Mrs. Maloney. Mr. Chairman.
    Chairman Issa. Would you let me get them through before any 
points of order? I won't start without it.
    Mrs. Maloney. Thank you.
    Chairman Issa. Mr. Philip Miscimarra is a partner at 
Morgan, Lewis & Bockius?
    Mr. Miscimarra. Bockius.
    Chairman Issa. Bockius LLP. And you specialize in labor and 
employment practices in Chicago, Illinois.
    Mr. Neil Whitman is president of Dunhill Staffing Systems 
in Charleston, SC, specializing in staffing.
    Mr. Julius G. Getman is the regent chair at the University 
of Texas at Austin School of Law.
    Ms. Cynthia Ramaker is an employee of the Boeing Co. in 
North Charleston but is testifying today as an individual and 
not on behalf of the company.
    And Mr. Lafe Solomon is the acting general counsel of the 
National Labor Relations Board.
    And I didn't miss anyone. So before we have anything else, 
pursuant to the rules, I would ask all witnesses to rise to 
take the oath.
    Raise your right hands.
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect that all answered in 
the affirmative. Please have a seat.
    Does the gentlelady have a point of order?
    Mrs. Maloney. Yes, Mr. Chairman.
    Chairman Issa. Please state your point of order.
    Mrs. Maloney. I do have a parliamentary inquiry.
    Chairman Issa. Please state your inquiry.
    Mrs. Maloney. And I would like to articulate a concern that 
I expressed in my opening statement as to Ms. Norton and Mr. 
Kucinich about the potential damage this hearing could have on 
the National Labor Relations Board action against Boeing, which 
is currently being heard by a judge as we sit here today.
    My concern echoed a letter that the ranking member of the 
Oversight Committee, Mr. Cummings, and the ranking member of 
the Committee on Education and the Workforce, Mr. Miller, sent 
you yesterday. And I would like unanimous consent to place it 
in the record.
    Chairman Issa. It will be placed in the record. I have a 
copy.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.020
    
    [GRAPHIC] [TIFF OMITTED] T1079.021
    
    [GRAPHIC] [TIFF OMITTED] T1079.022
    
    [GRAPHIC] [TIFF OMITTED] T1079.023
    
    [GRAPHIC] [TIFF OMITTED] T1079.024
    
    Chairman Issa. I thank you for your inquiry.
    Mrs. Maloney. And I am hoping that you can inform us how 
you intend to proceed with the hearing today. Specifically, do 
you intend to protect the NLRB legal proceedings from political 
interference today by directing committee members to limit all 
questions to Mr. Solomon to general questions about the NLRB 
and its processes and not ask questions directly related to the 
NLRB proceedings?
    Chairman Issa. I will try to answer the gentlelady's 
questions, the ranking members' questions, the letters, coming 
both from the White House and multiple committees, and I will 
do it in the following fashion.
    Mr. Solomon, I would like to ask you a few questions 
related specifically to your role here today to make clear what 
is in and not in bounds. Hopefully, we can do that on the 
record.
    First of all, is it correct that you are here not pursuant 
to a subpoena but, in fact, voluntarily. After the subpoena was 
issued, there was an acquiescence of your being here. Is that 
roughly the truth?
    Mr. Solomon. Sir, the subpoena was not issued.
    Chairman Issa. Oh, it was issued. It was signed. But our 
understanding is when the staff informed that a subpoena would 
compel, that there was an agreement outside of subpoena for 
your appearance voluntarily?
    Mr. Solomon. I didn't know there was a signed subpoena. I--
I----
    Chairman Issa. So, therefore, you are here voluntarily?
    Mr. Solomon. I am here voluntarily.
    Chairman Issa. Okay. That is even better. So you are here 
voluntarily. Do you feel intimidated by us asking you questions 
related to decisions you have already made?
    Mr. Solomon. I am here reluctantly. Not because I have 
anything to hide, but because I have a lot to protect. I need 
to protect the independence of the Office of General Counsel. I 
need to protect the due process rights of the litigants, and I 
need to ensure that there is a fair trial.
    Chairman Issa. Now you are not the administrative law 
judge?
    Mr. Solomon. Correct.
    Chairman Issa. And you have already made your mind up in 
this case or you wouldn't have brought the case. Is that 
correct?
    Mr. Solomon. I certainly issued the complaint. However, I 
am still actively involved in making strategic decisions about 
the litigation as it continues.
    Chairman Issa. It is our intent not to ask you as to your 
strategy of pursuit in this case against Boeing in which it is 
our belief--correct me if I am outright wrong--you have already 
made your decision they are guilty, or you wouldn't have 
brought this. Your strategy may change, but you made, you alone 
were the one person that made the decision to put this before 
an administrative law judge. And therefore, you had made a 
decision. Is that correct?
    This isn't a fact-finding, go fishing. You have made a 
decision, and you are prosecuting a case?
    Mr. Solomon. I made a decision that there was reasonable 
cause to believe that the National Labor Relations Act had been 
violated.
    Chairman Issa. Yes, if you could--I apologize. Perhaps 
because of the nature of these mikes, I think they are picking 
up okay, but if you would speak up just a little whenever 
possible.
    Mr. Solomon. Certainly, sir.
    I believed, after a thorough investigation, that there was 
reasonable cause to believe that the National Labor Relations 
Act had been violated. I authorized the issuance of a 
complaint. But you know, as I said, I am actively involved in 
going forward and determining the strategy of our litigation.
    Chairman Issa. Okay. And you are aware of precedent in 
which Congress has independently made decisions about all 
activities of the executive branch, whether direct or through a 
quasi-independent agency. Is that correct?
    Mr. Solomon. Yes, sir. I am unaware of any time a general 
counsel of the National Labor Relations Board has been called 
before Congress in a pending litigation.
    Chairman Issa. You are aware that the Congress has, from 
time to time, convened, offered laws restraining even the 
Federal court and certainly the executive branch from certain 
actions which they disagreed with. Is that correct?
    Mr. Solomon. I am no legal scholar in this regard----
    Chairman Issa. Fortunately, we have one here. I am sure he 
will pipe in at the appropriate time.
    Okay. Then I will issue guidance pursuant to the 
gentlelady's request. We believe--the chair believes and will 
rule that questions related to that which you have already 
decided, but not related to the strategy you will pursue in the 
pending case are inbounds.
    Facts which are entitled to be received by the defendant 
and others will be considered reasonable to ask for. Any item 
which is not discoverable by the defendant will be considered 
out of bounds for any question.
    The clock will stop if at any time individuals on either 
side ask a question in which you wish to seek or believe you 
need to seek your counsel. Unless your counsel is sworn, he 
won't be able to answer for you, but he will be available to 
you, and you will have whatever time you want or whatever time 
you need.
    Additionally, it is not our intent to interfere with the 
process ongoing. Congress has an independent right to make a 
decision to change the outcome.
    We could eliminate the NLRB. We could choose to take your 
premise and statutorily change it. That is part of the 
consideration that Congress has to make, and we have to make it 
in real time. This is not something we can wait until 3 years 
from now. Plus, we have amicus possibilities at any appropriate 
time.
    We will limit our questions to that decision which you have 
made and that which would be otherwise discoverable and nothing 
beyond that. Is that understood, and do you agree?
    Mr. Solomon. Yes. I think we might need to play it out a 
bit before I understand it.
    Chairman Issa. They give me a gavel so that I can make 
additional statements and rulings as appropriate.
    Is the gentlelady satisfied that at least to begin----
    Mrs. Maloney. I would like to thank the chairman. Congress 
historically has treaded very carefully before choosing to 
interfere in the legitimate law enforcement activities, and the 
timing of this hearing is unfortunate in that the proceedings 
have started. And I am confident that the committee's oversight 
responsibility can be fulfilled today without compromising the 
integrity of the NLRB's proceedings or the due process rights 
of private parties.
    So thank you for clarifying that, and let's go forward.
    Chairman Issa. I think we have gotten to the starting 
point. And again, we will pause the clock if you need to 
consult on any question, and I will consider changes as 
necessary.
    With that, I am wrung out from asking questions. So before 
I take my round--I already did that. I did that. I am going to 
say that. Okay. We will now begin, and we will go right down 
the row with opening statements.
    Unlike us, where we hopefully suspended a little bit of 
what otherwise would have been the long opening statements, you 
will have up to a full 5 minutes. When you see, if you can see 
the lights go from green to yellow to red, please try to wrap 
it up.
    Understand your entire opening statement, no matter how 
long, will be included in the record of this hearing, in 
addition to extraneous material or additional comments you may 
choose to add later.
    With that, Ms. Ramaker.
    Ms. Ramaker. Oh, wow.
    Chairman Issa. If you would like to pass, we will come back 
to you.
    Ms. Ramaker. No, I'm fine.
    Chairman Issa. Thank you very much for being here. I 
realize that you are not accustomed to this kind of procedure, 
and we didn't help with our opening start. But please 
understand we know you are here as an individual and just be 
comfortable and say what you feel from your heart.

 STATEMENTS OF CYNTHIA RAMAKER, EMPLOYEE, THE BOEING CO.; NEIL 
  WHITMAN, PRESIDENT, DUNHILL STAFFING SYSTEMS; LAFE SOLOMON, 
ACTING GENERAL COUNSEL, NATIONAL LABOR RELATIONS BOARD; PHILIP 
 MISCIMARRA, LABOR ATTORNEY, MORGAN, LEWIS & BOCKIUS LLP; AND 
  JULIUS GETMAN, PROFESSOR, EARL E. SHEFFIELD REGENTS CHAIR, 
               UNIVERSITY OF TEXAS SCHOOL OF LAW

                  STATEMENT OF CYNTHIA RAMAKER

    Ms. Ramaker. Okay, if you hear this noise, it's my knees 
knocking. So I'm sorry.
    Chairman Issa. Could you pull the microphone a little 
closer?
    Ms. Ramaker. All right. My name is Cynthia Ramaker. I'm an 
employee--my name is Cynthia Ramaker. I'm an employee of Boeing 
based in North Charleston, SC.
    I am one of the employees who is attempting to intervene in 
the case involving the Boeing Co., the International 
Association of Machinists, and the NLRB regarding Boeing's 
South Carolina operation.
    In April 2006, I was in the first group to be hired by 
Vought Aircraft, the manufacturer with the Charleston facility 
that assemble the two aft sections of large Boeing aircraft. 
When I went to work for Vought in 2006, the IAM had not made 
contact with employees.
    In 2007, IAM organizers began soliciting Vought employees 
with a door-to-door campaign. The union was eventually voted in 
in the spring of 2008, and after the union got in, it began 
contract negotiations with Vought. The IAM did not inform 
employees the importance of issues that were negotiated--being 
negotiated with Vought.
    At some point, the IAM must have known the contract it was 
negotiating was likely to be rejected because the meeting in 
November 2008, at which the contract was to be ratified, was 
billed as a normal union meeting with no mention of a 
ratification vote. I recall the IAM assuring employees that any 
bad things in the contract would later be improved.
    Of all the union members in the unit, only 13 attended the 
contract meeting--ratification meeting. Those few in attendance 
ratified the IAM's contract by a vote of 12 to 1. All of the 
provisions of the new IAM contract were worse than what we had 
as Vought employees. We lost medical, dental, short-term 
disability.
    The Vought employees' dissatisfaction with the IAM's action 
surrounding the contract only increased when the workers were 
laid off in the following weeks. After the contract 
ratification, employees attempted to contact IAM officials, 
leadership. The IAM grand lodge representatives held one 
meeting, and then we had no contact from them for 4 months 
during the layoff. Nobody was even able to make contact with 
them.
    Around this time, I was voted as the local president and 
continued in that position until September 2009, when the union 
was decertified. There was nothing I could do with respect to 
influencing the union leadership or reassuring the employees 
about our future under the new contract with the union.
    I was not surprised by the unfair labor practice filed by 
the IAM in Seattle or Everett against Boeing. To me, they are 
violating my right to work with a choice. Isn't that what--my 
hands are shaking. Isn't that what being an American is all 
about, a choice? That's my right.
    They made it perfectly clear to us that they did not want 
the 787 built here in South Carolina. After Boeing bought the 
facility, I was aware of a petition being organized to 
decertify the union, and I had no role in that signature 
gathering for the decertification petition. The decertification 
election was held in September 2009, and the IAM was voted out 
by a tally of 199 to 69.
    Recently, the IAM has begun contacting employees again at 
their home, trying to get them to join. This campaign was very 
poor in comparison to the one several years ago.
    The Boeing campus in North Charleston is divided into three 
different production buildings. Building 8819 is currently 
staffed by 1,200 employees. Building 8820 is currently staffed 
with about the same. When it is fully staffed, the FAD 
building--F, A, and D--will employ some 3,800 employees.
    Thousands of people will be unemployed if the NLRB 
complaint is successful. Losing my job will be catastrophic to 
myself and the workers at the North Charleston Boeing facility. 
We are homeowners. We have families that will be affected.
    And I understand that the NLRB general counsel's remedy in 
this case will force Boeing to discontinue the final assembly 
and delivery work in Charleston and transfer it to Seattle, and 
this would devastate--totally devastate our families and the 
community. It is absolute certainty that many Charleston-based 
employees, including me, will lose our jobs with Boeing in 
South Carolina if the general counsel's proposed remedy is 
adopted.
    Boeing is one of the best employers in the area, and I 
would like to continue working for them. But if the 787 program 
is moved to Washington, I will not accept a relocation offer. I 
have chosen to exercise my rights as a citizen of the United 
States to live and work in South Carolina.
    Our personal experience with IAM has been very bad. 
Although I have nothing against unions in principle, I strongly 
believe that membership in a union and representation by a 
union should not be compulsory.
    We had a union in our plant. The majority of the employees 
did not want to be represented by that union. So it got voted 
out. Now it seems we are being punished for that choice.
    I strongly believe that employers should not be told by the 
Federal Government or a union where they can establish their 
operations, and if Boeing thinks it can get the job done more 
profitably and successfully in South Carolina, then that's 
Boeing's decision to make.
    And I declare under penalty of perjury that the foregoing 
is true and correct.
    [The prepared statement of Ms. Ramaker follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.025
    
    [GRAPHIC] [TIFF OMITTED] T1079.026
    
    [GRAPHIC] [TIFF OMITTED] T1079.027
    
    [GRAPHIC] [TIFF OMITTED] T1079.028
    
    [GRAPHIC] [TIFF OMITTED] T1079.029
    
    [GRAPHIC] [TIFF OMITTED] T1079.030
    
    [GRAPHIC] [TIFF OMITTED] T1079.031
    
    Chairman Issa. Thank you. Thank you very much.
    Ms. Ramaker. You're welcome.
    Chairman Issa. Mr. Whitman.

                   STATEMENT OF NEIL WHITMAN

    Mr. Whitman. Thank you.
    Mr. Chairman, members of the committee, distinguished 
visitors, I want to thank you for allowing me the opportunity 
to discuss the various positive impact that Boeing has had both 
on my small business and the Charleston community.
    My name is Neil Whitman. My wife, Melinda; my daughter, 
Katie; and I own and operate Dunhill Staffing Systems based 
here in Charleston.
    In 2000, Melinda and I relocated to the Charleston 
community with the idea of starting our own business. Like many 
Americans, we dreamed of owning a business. On August 15, 2001, 
we launched Dunhill Staffing Systems of Charleston.
    We are a provider of fee-paid recruiting for technical and 
sales professionals throughout the Southeast, with a special 
emphasis on our local market. Some would call us headhunters. 
We prefer to be called executive search consultants.
    Our plans for a grand opening on September 17th changed 
abruptly when our Nation was attacked on September the 11th. 
Despite the shock this had on our Nation's economy, my business 
persevered and was profitable in its first year of operation.
    As our business grew, I hired more consultants, eventually 
employing seven full-time staff members. They were well paid 
and received benefits. We became involved in our local 
community, including our Chamber of Commerce; SCAPS, our State 
personnel association; the local school district; our churches; 
and donated time and money to numerous nonprofits throughout 
the Charleston area.
    My business plan called for the launching of an hourly 
staffing division, which we did in 2005. Good fortune smiled on 
us again, and this sector was profitable in 1 year.
    The announcement made in 2004 that Vought Aircraft and 
Global Aeronautica were coming to Charleston was, indeed, good 
news. Aircraft manufacturing represented an important new 
business sector for our region.
    Soon after this announcement, my company was contacted 
about providing services to these companies. Our business 
volume grew, particularly with Global Aeronautica. And it grew 
at a steady pace, and they eventually became our largest 
customer.
    My decision to launch our hourly division as a hedge 
against an economic downturn was validated when our search 
business took a dramatic downturn in the fall of 2008. The 
ripple effect of the housing market meltdown, the fall of 
Lehman Brothers, and the stock market plunge combined to 
virtually kill our most profitable sector.
    I don't mind telling you I was scared that our business 
wouldn't make it. Thankfully, companies supporting Boeing's 787 
program here in Charleston continued to grow, and this 
sustained our business through 2009. We placed dozens of 
individuals with Global Aeronautica in good-paying jobs that 
offered benefits and the opportunity for many of our 
contractors to become full-time staff.
    Many of the people we placed were unemployed at the time 
with dim prospects for the future. I know they were all glad to 
have good-paying jobs in a tough economic time.
    The announcement on October 28, 2009, that Boeing had 
picked Charleston for their new assembly plant was the best 
economic news in a long while. I knew immediately this was a 
game-changer for our area and offered great potential for my 
small business.
    I learned that Boeing was committed to utilizing local 
resources and that it gave generously to the communities where 
they were located. All of this proved to be true.
    After numerous meetings and intense negotiation, my company 
was added to Boeing's list of national contract labor 
suppliers, and now we get to compete for their business every 
single day. To handle this additional volume of work, I've 
added a full-time account manager who focuses exclusively on 
their needs.
    The jobs we fill all pay well above the local average and 
provide an entry point for people to join Boeing as regular 
full-time employees. My business has grown. We've added over 
100 employees, and I've seen my revenue grow by 295 percent. 
And this is counter to the current job market, which, as recent 
news indicates, continues to be very difficult.
    Once again, if not for Boeing business, my small business 
would be very different. Mine is not the only small business 
that's felt the positive impact of Boeing's presence in 
Charleston. Recently, I had a conversation with an engineer 
from a local engineering company who told me that without 
Boeing they'd be out of business. I have no doubt there are 
many such stories to be told here in Charleston.
    If Boeing is forced to shut down their Charleston 
operations, it would mean the loss of thousands of direct and 
indirect jobs in an economy that is just barely recovering from 
the recession. Again, I don't know if we'd survive.
    Boeing has proven, as promised, to be a good corporate 
citizen. Boeing executives and employees are buying houses, 
attending our churches, participating in our Chambers of 
Commerce, and are actively involved in several nonprofits in 
our area. They've given over $1 million to local charities and 
I believe will only continue to make Charleston a better 
community for all of us to live, learn, work, and play. Losing 
Boeing as a result of this lawsuit would cost thousands of jobs 
and set our community back for years.
    When I first heard of this lawsuit, I was more than a 
little concerned. Many of my friends and business colleagues 
wondered why and how our Government would consider such an 
action, which appears to be an assault on our free enterprise 
system.
    Each and every day, businesses large and small must make 
decisions about where to invest their limited resources. That's 
what I did 11 years ago when I decided to start my own small 
business in Charleston. I did so after my research showed 
Charleston to be a good market, and that decision proved to be 
a good one.
    Boeing did the same thing and decided to invest several 
hundred million, now a billion, in our community. I believe 
they did so after carefully considering a multitude of factors, 
including the positive labor climate in our State.
    This lawsuit by an agency of our Federal Government is, in 
my opinion, against all that makes our economic system special. 
It will have negative consequences for future generations of 
entrepreneurs and business leaders who must be able to locate 
their businesses without the threat of Government intervention. 
The freedom to make these kind of decisions must be preserved.
    Thank you.
    [The prepared statement of Mr. Whitman follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.033
    
    [GRAPHIC] [TIFF OMITTED] T1079.034
    
    [GRAPHIC] [TIFF OMITTED] T1079.035
    
    Chairman Issa. Thank you very much.
    Mr. Solomon.

                   STATEMENT OF LAFE SOLOMON

    Mr. Solomon. Mr. Chairman and distinguished members of the 
committee, I appear before you today as the acting general 
counsel of the National Labor Relations Board, having been 
appointed to this position by President Obama on June 21, 2010.
    I would like to start by acknowledging that workers in 
North Charleston are feeling vulnerable and anxious because 
they are uncertain as to what impact any final decision may 
have on their employment with Boeing. These are difficult 
economic times, and I truly regret the anxiety this case has 
caused them and their families.
    The issuance of the complaint was not intended to harm the 
workers of South Carolina, but rather to protect the rights of 
workers, regardless of where they are employed, to engage in 
activities protected by the National Labor Relations Act 
without fearing discrimination.
    Boeing has every right to manufacture planes in South 
Carolina or anywhere else, for that matter, as long as those 
decisions are based on legitimate business considerations. This 
complaint was issued only after the parties failed to 
informally resolve this dispute.
    I personally met with the parties, and I tried for 3 months 
to facilitate a settlement of this case. I remain open to 
playing a constructive role in assisting the parties to settle 
this dispute without the costs and uncertainties associated 
with extended litigation.
    I believe that, given the parties' longstanding bargaining 
relationship, a settlement would serve the interests of the 
parties and the workers and would promote industrial peace. In 
the absence of a mutually acceptable settlement, however, both 
Boeing and the machinists union have a legal right to present 
their evidence and arguments in a trial and to have those 
issues decided by the board and Federal courts.
    All charges filed with our regional offices are carefully 
and impartially investigated to determine whether there is 
reasonable cause to believe that under the board's precedents 
an unfair labor practice has been committed. Fairness to the 
parties and sound development of the law weighs in favor of 
presenting these types of cases to the board for decision, 
subject to review by the courts.
    I would not be fulfilling my responsibilities if I turned a 
blind eye to evidence that an unfair labor practice may have 
occurred. I took an oath to enforce the National Labor 
Relations Act and to protect workers from unlawful conduct.
    The general counsel's concern with fairness to the parties 
does not end with the issuance of the complaint. Throughout the 
proceeding, the general counsel remains master of the complaint 
and is responsible to ensure that the prosecution of a case is 
justified by the facts and law.
    As such, it remains open to the general counsel to make 
concessions on issues of fact or law and to pursue settlement 
discussions with the charged party, even over the objections of 
the charging party.
    For all these reasons, the actual fairness of the 
proceedings before the board and, equally important, the 
perception that the board's administrative processes are fair 
vitally depends on the public and the parties retaining the 
confidence that the general counsel is carrying out his 
prosecutorial responsibilities on the basis of fact and law in 
the case and is not making decisions on the basis of political 
or other matters not properly before the board.
    As you know, the Boeing hearing began on Tuesday of this 
week before an administrative law judge in Seattle, Washington. 
I am actively involved in overseeing the Boeing litigation and 
in strategic decisions necessary for the prosecution of this 
case.
    My obligation to protect the independence of the Office of 
the General Counsel and the integrity of the enforcement 
process restricts my ability to offer insight into the 
decisionmaking here. I hope you will share my commitment that 
these proceedings not be construed as an effort by the Congress 
to exert pressure or attempt to influence my prosecutorial 
decisions in this case, which have been and will continue to be 
made based on the law and the merits and in a manner which 
protects the due process rights of the litigants.
    I come here voluntarily out of respect for the oversight 
role of Congress. I will do my best to answer your questions, 
consistent with my obligations to the parties and to the 
American public with respect to the ongoing Boeing case.
    The adjudicatory process must be fair and impartial so that 
the parties' due process rights, which are guaranteed by the 
Constitution, are preserved. Our American legal system of 
justice is guided by these fundamental principles.
    Thank you.
    [The prepared statement of Mr. Solomon follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.036
    
    [GRAPHIC] [TIFF OMITTED] T1079.037
    
    [GRAPHIC] [TIFF OMITTED] T1079.038
    
    [GRAPHIC] [TIFF OMITTED] T1079.039
    
    [GRAPHIC] [TIFF OMITTED] T1079.040
    
    Chairman Issa. Thank you.
    Mr. Miscimarra. Was that closer?

                 STATEMENT OF PHILIP MISCIMARRA

    Mr. Miscimarra. Much closer, Mr. Chairman.
    Chairman Issa, Representative Maloney, and committee 
members, thank you for the invitation to appear today.
    I'll start with a pair of opening disclaimers. My view of 
the law differs from what is reflected in the complaint that's 
been issued by the acting general counsel against Boeing. 
Disclaimer number two, this is not the first time different 
views have been expressed about major business changes.
    Three factors, in my view, help explain why the litigation 
against Boeing has resulted in such controversy. The first 
factor involves NLRA process. When dealing with major business 
decisions, the board litigation resembles a tortoise that can't 
win any race because the economy now moves at speeds not 
imaginable when the statute was passed.
    It's true the general counsel only decides whether to issue 
a complaint, and the Boeing complaint does not constitute a 
finding of unlawful conduct. But the Boeing complaint places a 
$750 million investment decision on a very long litigation 
treadmill. And especially when the litigation seeks to have 
such a major investment redone somewhere else, which might be 
ordered 5 or 10 years down the line, the complaint's issuance 
has immediate adverse consequences.
    The board's general counsel acts like a traffic cop. He can 
issue a citation, but he doesn't write the laws, and he doesn't 
decide the cases. But traffic citations don't routinely involve 
impounding the car for 5 to 10 years, and that's the practical 
effect when an NLRB complaint challenges major investment 
decisions.
    The second factor I'll discuss briefly involves the 
substance of existing law. The NLRA prohibits a relocation 
motivated by anti-union hostility, but the cases in this area 
require some tangible transfer and removal of preexisting work. 
Boeing's assembly plant in South Carolina is new investment 
that has not involved any tangible relocation from somewhere 
else.
    Now, one focus in the complaint against Boeing are 
statements to the effect that South Carolina investment 
decision, that decision was influenced by past work stoppages 
at Boeing's unionized facilities in Washington State. Now, 
those unionized operations had five strikes since 1975. It 
included a 58-day strike in 2008, which shut down the 
Dreamliner production when the program was already 15 months 
behind schedule. And that strike reportedly cost Boeing $1.8 
billion in lost revenues.
    Now, companies are permitted to make decisions based on 
economic costs that exist because of collective bargaining or 
strikes. So it's not surprising that a company like Boeing, 
when making a major investment decision, would want to maximize 
return and minimize downtime. The act prohibits discriminatory 
relocations, but it doesn't require that employers make 
irrational decisions about new investment.
    The third factor I'll mention is the outcome or remedy 
being sought in the Boeing litigation. Even if some remarks 
were found to be objectionable--and such a finding has not been 
made in the case--that would not justify, in my view, the 
remedial order requested in the complaint.
    Now I greatly respect the members of the NLRB. I respect 
the acting general counsel and others that are employed in the 
agency. But it would benefit everyone if there is some 
adjustment in the factors that I've mentioned, which could 
accomplish a resolution of the Boeing dispute.
    Now I'll close today by mentioning a relocation that was 
announced on June 10th. I'm not talking about June 10th a week 
ago. This other relocation was announced on June 10th 30 years 
ago, June 10, 1981, and it took 13 years before that litigation 
ended.
    That litigation was called Dubuque Packing Co., and here's 
what the Court of Appeals said when it reviewed that dispute. 
``This case presents hard questions. Indeed, some of the most 
polarizing questions in contemporary labor law. While we are 
sympathetic to the task that lies ahead for the National Labor 
Relations Board, our sympathy does not lead us to shirk our 
duty to hold the board accountable for the rationality of its 
decisions.''
    That concludes my prepared testimony. Again, thank you. 
I'll be happy to answer any questions.
    [The prepared statement of Mr. Miscimarra follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.041
    
    [GRAPHIC] [TIFF OMITTED] T1079.042
    
    [GRAPHIC] [TIFF OMITTED] T1079.043
    
    [GRAPHIC] [TIFF OMITTED] T1079.044
    
    [GRAPHIC] [TIFF OMITTED] T1079.045
    
    [GRAPHIC] [TIFF OMITTED] T1079.046
    
    [GRAPHIC] [TIFF OMITTED] T1079.047
    
    [GRAPHIC] [TIFF OMITTED] T1079.048
    
    [GRAPHIC] [TIFF OMITTED] T1079.049
    
    [GRAPHIC] [TIFF OMITTED] T1079.050
    
    [GRAPHIC] [TIFF OMITTED] T1079.051
    
    [GRAPHIC] [TIFF OMITTED] T1079.052
    
    [GRAPHIC] [TIFF OMITTED] T1079.053
    
    [GRAPHIC] [TIFF OMITTED] T1079.054
    
    [GRAPHIC] [TIFF OMITTED] T1079.055
    
    [GRAPHIC] [TIFF OMITTED] T1079.056
    
    Chairman Issa. Thank you.
    Professor.

                   STATEMENT OF JULIUS GETMAN

    Mr. Getman. Thank you.
    And like all of those who preceded me, I thank the 
committee for the opportunity to speak to it.
    Chairman Issa. Thank you. And it is a large lecture hall. 
So the louder you speak, the better.
    Mr. Getman. Thank you. I will take advantage of that.
    When I agreed to speak to this committee, I started reading 
up on the Boeing case more than I had previously. And in my 
reading, I was struck by the fact that there was an enormous 
amount of statements made about the case, many of it by 
political figures and many of it by political commentators and 
some by law professors, many of whom I knew.
    Now what was striking to me was the difference in tone 
between the comments of the political figures and the political 
commentators and those of the law professors. The political 
commentators saw in this case something unparalleled, 
dangerous, very powerful, threatening essentially the 
capitalist system and the ability of employers to transfer work 
from one facility to another. And they kept attributing this to 
the NLRB.
    The law professors saw this as a fairly routine Section 
8(a)(3) charge by the labor board, and I want to identify 
myself with my fellow law professors. This is not in any way an 
earth-shaking case. This is a traditional case being decided, 
and which should be decided in accordance with principles of 
law that are over 50 years old.
    It is well settled, and my colleague to my right does not 
disagree, that a company may not transfer work for retaliatory 
reasons. Of that, there is a statement to that effect by 
Judge--which I quote in my testimony--by Judge, later Chief 
Justice Burger. This is in 1967.
    ``While it is now clear that an employer may terminate his 
business for any reason, it is equally well settled that he may 
not transfer its situs to deprive his employees of rights 
protected by Section 7.''
    Now the general counsel alleges that Boeing has taken the 
steps that it has taken in transferring work from Washington to 
South Carolina to retaliate against the workers for their 
activity, for their union activity in Washington. Now Section 
8(a)(3) of the act, its general purpose has been stated by 
Justice Frankfurter is ``to insulate the rights of workers to 
engage in union activities from their job rights.''
    Which means that you may not retaliate against workers or 
in any way punish them for engaging in union activity. The 
general counsel alleges that that is precisely what Boeing has 
done.
    I have read his complaint, and it is filled with quotes 
from Boeing officials basically acknowledging that that's what 
they've done. To me, the most unusual thing about this matter 
is that Boeing has--that officials of Boeing have confessed on 
numerous occasions to having violated the law. And the general 
counsel has cited this.
    It is also the case that the remedy that he seeks is not at 
all draconian. In fact, he's gone out of his way to state 
that--and I'm quoting from the complaint--``The acting general 
counsel does not seek to prohibit respondent from making 
nondiscriminatory decisions with respect to where work will be 
performed, including nondiscriminatory decisions with respect 
to work at its North Charleston, South Carolina, facility.''
    So that while the matter proceeds, there is no doubt that 
Boeing continues to have the right to transfer work to South 
Carolina. And so long as it's doing so on a legitimate business 
and not a retaliatory basis. And it is for that reason that the 
case seems to us, to most of us law professors--myself, 
Professor Brudney and others--it seems to us a traditional 
Section 8(a)(3) case.
    Now there is another--and so, we wonder why, in light of 
the fact that the board is doing nothing unusual or the general 
counsel is doing nothing unusual, why is it that there needs to 
be a hearing by the Oversight Committee? There is an additional 
reason for our concern, and that is process, which has been 
referred to by several of the committee members.
    As I point out in my testimony, the NLRB has not decided 
this case. The general counsel, who is essentially a 
prosecutor, has discovered enough evidence to proceed. He seems 
in the----
    Chairman Issa. We will get to that, if you can wrap up, 
please?
    Mr. Getman. Well, all right. I just want to make this 
point, which I think is important. That there are--if Boeing is 
correct and if the general is correct, there are a whole bunch 
of legal processes, and these are the processes that are 
established by law to correct it.
    We have all of the hearings still pending before the 
administrative law judge, the labor board itself, and finally, 
in the courts. And it's important to note that Boeing has to 
take no action until it's ordered to do so by the court.
    [The prepared statement of Mr. Getman follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.057
    
    [GRAPHIC] [TIFF OMITTED] T1079.058
    
    [GRAPHIC] [TIFF OMITTED] T1079.059
    
    [GRAPHIC] [TIFF OMITTED] T1079.060
    
    [GRAPHIC] [TIFF OMITTED] T1079.061
    
    Chairman Issa. I thank the gentleman.
    I will now recognize myself for the first round of 
questioning.
    Mr. Getman, Professor, since you were so eloquent in your 
explanation, I have a question for you that maybe is just 
because I wasn't a student ever in your class. Is there a right 
under the National Labor Relations Act to guarantee that you 
have new employees junior to you?
    Okay. Mr. Solomon, are you discriminated against if you 
don't become more senior, if there are not new employees 
underneath you in seniority? Is that a discrimination? In other 
words, not hiring new people, is that a discrimination against 
the existing individuals that are working?
    Mr. Solomon. I don't----
    Chairman Issa. If no people lose their jobs, if 100 percent 
of the people continue to get the same pay and benefits in 
Everett, Washington, then are they discriminated by not having 
additional fellow Seattle residents get jobs?
    Mr. Solomon. That isn't the theory of our complaint, Mr. 
Chairman.
    Chairman Issa. I am not talking necessarily about your 
complaint. There is no cause of action if there is no 
discrimination. Correct?
    You know, you can choose----
    Mr. Solomon. But there's not a violation of the National 
Labor Relations Act.
    Chairman Issa. So the choice not to invest in a business-
unfriendly environment is, in fact, not protected by the 
National Labor Relations Act. Is that correct? New investment, 
new jobs, new decisions. Not protected by the National Labor 
Relations Act. Correct? In your opinion.
    Okay. Let me get to a couple of fairly simple points. You 
are an acting. You were chosen by the President in 2010. You 
serve at his pleasure. Is that correct?
    Mr. Solomon. Correct.
    Chairman Issa. And you will continue to serve at his 
pleasure until or unless you are confirmed. After that, you 
could only be removed for cause. Correct?
    Mr. Solomon. Yes.
    Chairman Issa. So, oddly enough, somebody who totally is 
dependent upon the continued best wishes of President Obama is 
who brought this case. Just an oddity that you have been so 
long since 2010, and you haven't been confirmed?
    Mr. Solomon. The--the White House had no involvement in my 
decisionmaking process.
    Chairman Issa. I didn't ask that, but thank you for 
offering. [Laughter.]
    And the NLRB itself has four Obama appointees and one 
vacancy, and one of those appointees is a recess appointment, 
meaning not confirmed. Is that correct?
    Mr. Solomon. That is correct.
    Chairman Issa. So the term ``independent,'' you are 
currently no more independent than Janet Napolitano or any of 
the other political appointees of the President?
    Mr. Solomon. I would respectfully disagree with you over 
that.
    Chairman Issa. I mean, from a standpoint of you serve at 
the pleasure of the President, right?
    Mr. Solomon. Yes.
    Chairman Issa. Okay. One of the questions I am trying to 
understand, and I think I will go to Chicago for a moment, 
Mr.--and I keep, I have a tough time with your name--
Miscimarra.
    Mr. Miscimarra. Miscimarra, Mr. Chairman.
    Chairman Issa. Miscimarra? Okay. Much better when I hear 
it. Must be a South Carolinian thing. [Laughter.]
    Voice. Very much a South Carolina name.
    Chairman Issa. Your opinion is different. But let me just 
ask, because Professor Getman was kind enough to say that this 
was so ordinary and routine and common, is there anything 
common about an expanding opportunity, new jobs, and some of 
those new jobs--3,000 or so of them are going to Everett, 
Washington, and 1,000 are coming here? Is there anything 
unusual about the triggering--notwithstanding what is in the 
hearts and minds of executives or even the conversations of 
executives, is there anything unusual in a case being brought 
claiming that it is retaliatory to be only giving three out of 
four jobs to the people that you are supposedly retaliating 
against?
    Mr. Miscimarra. I mean, that's one of the things that's 
unusual, Mr. Chairman, about this case, in my opinion. You 
know, there are two things.
    One is, it's very clear, at least in my reading of Section 
8(a)(3) cases that deal with discriminatory relocations, that 
they involve some sort of physical transfer of work and some 
sort of removal, a tangible removal of work.
    You know, I cited approximately 15 cases with quotes in 
my--the written version of my testimony. And right down the 
line, the cases all talk about taking work from point A, moving 
it to point B. As I understand the facts involving the 
respective facilities that are at South Carolina and Washington 
State, employment is increasing in both places, and it's 
unusual in that context, I think unprecedented, to have an 
8(a)(3) complaint.
    Chairman Issa. Thank you.
    Ms. Ramaker, is there any doubt in your mind if you went 
and held a vote and voted back in the International Machinists 
and Aerospace Union and became its president, is there any 
doubt in your mind that this wouldn't all go away, and you 
would be just fine as long as you were a union shop?
    Ms. Ramaker. No, and I'm glad you brought that up. Because 
we've had a problem or issues with IAM out of Everett, 
Washington, Puget Sound, the whole area, since we opened up 
even as Vought.
    When we were union, there was no support from their union 
reps. We're union. We're not union. It didn't matter. It seemed 
to be to us, as a worker, about the total control of this 
program versus where it is. They wanted it there, period.
    Chairman Issa. Okay. So just a quick follow-up. Your view 
is that this has nothing to do even with your choice not to be 
a union shop----
    Ms. Ramaker. Correct.
    Chairman Issa. That this is really about people in Everett, 
Washington, wanting to have everything in Everett, Washington?
    Ms. Ramaker. Correct.
    Chairman Issa. Thank you.
    I go to the gentlelady from New York for her round of 
questioning.
    Mrs. Maloney. I thank the chairman.
    Since the chairman pointed out that Mr. Solomon was 
appointed by President Obama, I wanted to also point out that 
he began his career in the agency as a field examiner in 
Seattle in 1973, and I understand you have worked for a number 
of Presidents and a number of board members, both Republican 
and Democratic.
    Could you be described as a career professional, if you 
would like to clarify?
    Mr. Solomon. I am--I am a career professional.
    Mrs. Maloney. How many Presidents have you worked for?
    Mr. Solomon. I have worked specifically or directly with at 
least 10 board members, some Republican, some Democrats, and 
then, of course, I have worked indirectly with many, many more.
    Mrs. Maloney. And served under how many Presidents during 
that tenure with----
    Mr. Solomon. That's hard for me to do the math. Since 
however many we've had.
    Mrs. Maloney. But you have served both Republican and 
Democratic, and you are a professional?
    Mr. Solomon. Yes, however many we've had since 1972.
    Voice. Since Gerald Ford apparently.
    Mrs. Maloney. Right. I wanted to go back to Professor 
Getman and give him more time to eloquently describe the points 
that he was making. And you pointed out that this transfer, 
that any transfer for legitimate reasons for wanting to go to 
historic Charleston, whatever the reason, was totally 
legitimate.
    But if you are transferring in retaliation because of the 
constitutional right that is protected by law, the right to 
protest, the right to bargain, that that is not acceptable. And 
as my colleague Mr. Kucinich pointed out in his opening remarks 
with his direct quotation, Boeing officials, even the top 
Boeing official has made it very clear that this was an act of 
retaliation.
    And I would like you to clarify more what role does South 
Carolina's status as a right-to-work State or as a beautiful 
community or as a wonderful place to visit, what did that play 
in the complaint issued by the NLRB? And explain the case more 
that it was really because of the retaliation, which is a 
protection for all Americans, protection for all workers in any 
capacity.
    So I wanted to give you more time to explain your position.
    Mr. Getman. Well, thank you for the question.
    First, I want to point out that the role of the general 
counsel is limited. He or she is not supposed to take into 
account the wonders of South Carolina or the beauty of 
Washington State either. The role is limited to enforcing the 
National Labor Relations Act and to enforcing Section 8(a)(3).
    And I have been a student of that for close to 50 years. 
And as I indicated and you properly stated it, the whole point 
of Section 8(a)(3) is employers can make decisions on any basis 
that they want. That's no business of the general counsel.
    But if they're doing so to punish people because they went 
on strike, that is a violation of the National Labor Relations 
Act. Maybe that's not the reason they so acted. That will come 
out during the process.
    I must say the general counsel has cited, or the acting 
general counsel has cited numerous statements which seem to 
support the allegation. It does seem to me that if I were the 
general counsel of the National Labor Relations Board, I would 
feel compelled to do what he did and issue a complaint.
    Mrs. Maloney. When you talk about strikes, I know a very 
famous strike came, happened in New York in the district I 
represent, the Triangle Shirtwaist Factory. After there was a 
fire, all the doors were locked. Well over 200 women were 
killed.
    And there were strikes saying we should have safe working 
conditions. And I remember reading about the strikes that said 
we should not have child labor laws. And people criticized 
people. ``They shouldn't be doing that.'' Now it is an accepted 
value in our country.
    So, Mr. Solomon, I would just like to ask you, as we are 
struggling to recover from the great recession, the worst since 
the Great Depression, do you believe that the enforcement of 
the NLRA is good for the middle class and good for the values 
that have helped to build this country? Your comments, please.
    Mr. Solomon. Oh, certainly, Congresswoman.
    The National Labor Relations Act was passed by Congress in 
1935, having come out of a greater depression than we have just 
had. But the Congress was--believed that protecting workers and 
giving them a voice was good for the economy. And if I may, I 
would like to read from Section 1 of the National Labor 
Relations Act that was passed by Congress.
    ``It is declared to be the policy of the United States to 
eliminate the causes of certain substantial obstructions to the 
free flow of commerce and to mitigate and eliminate these 
obstructions when they have occurred by encouraging the 
practice and procedure of collective bargaining and by 
protecting the exercise by workers of full freedom of 
association, self organization, and designation of 
representatives of their own choosing for the purpose of 
negotiating the terms and conditions of their employment or 
other mutual aid or protection.''
    Chairman Issa. Thank you.
    The gentleman, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Solomon, I want you to assume that a customer told 
Boeing that because of work stoppages they were going to find 
another supplier for airplanes. Can Boeing consider that?
    Mr. Solomon. I can only decide a case based on the 
investigation and the facts of that case, and----
    Mr. Gowdy. Mr. Solomon, I have a very limited amount of 
time, and I am sure, prosecutor to prosecutor, you can 
appreciate the fact that I am going to need a yes or no answer. 
And then you can explain it, if you want to.
    A customer told Boeing that because of work stoppages they 
were going to find another supplier of airplanes. Can Boeing 
consider that?
    Mr. Solomon. A company can consider many things, 
Congressman.
    Mr. Gowdy. Can they consider the fact that they are going 
to lose customers?
    Mr. Solomon. I can only tell you what the theory of the 
complaint is. The facts will come out at the hearing, and I----
    Mr. Gowdy. Mr. Solomon, do you agree that it is a fact that 
there was a work stoppage for 58 days that cost Boeing over $1 
billion? Do you agree that that is a fact?
    Mr. Solomon. Yes, I do. Yes.
    Mr. Gowdy. Do you agree that Mr. Branson said these work 
stoppages are unacceptable, and if they continue, we will find 
another supplier of our airplanes? Do you dispute that that 
statement was made?
    Mr. Solomon. I--I just do not want to talk about evidence 
that's going to be introduced into the record.
    Mr. Gowdy. Mr. Solomon, it has been in the newspaper. There 
is nothing confidential about that. Do you dispute that Mr. 
Branson, a customer of Boeing's, said if the work stoppages 
continue, we will find another supplier of our airplanes?
    Mr. Solomon. That is not evidence on the record, and I am 
not going to talk about facts that are going to be introduced 
either by the general counsel or by Boeing in this case.
    Mr. Gowdy. Mr. Solomon, can you name me a single, solitary 
worker in Washington State who has lost their job as a result 
of Boeing's decision to build a separate, distinct line of work 
in Charleston?
    Mr. Solomon. Not at this time, no.
    Mr. Gowdy. Can you name me a single, solitary employee in 
Washington State who has lost a benefit as a result of Boeing's 
decision to build a separate, distinct line of work in 
Charleston?
    Mr. Solomon. Not at this time, no.
    Mr. Gowdy. Then where is the retaliation, Mr. Solomon?
    Mr. Solomon. The theory of the complaint is that the 
decision to build the second line in South Carolina was 
motivated by the employees having exercised their Section 7 
rights.
    Mr. Gowdy. Which goes exactly to the first question I asked 
you. So I am going to ask you again. Can Boeing factor in the 
fact that customers are going to leave them if the work 
stoppages continue? Is that among the myriad factors? Can they 
factor that in?
    Mr. Solomon. Boeing will introduce evidence saying that 
they had reasons other than----
    Mr. Gowdy. Mr. Solomon, you are the prosecutor. You get to 
decide whether or not there is probable cause.
    Mr. Solomon. Yes, but Boeing--all I'm----
    Mr. Gowdy. You didn't have to file this complaint. You did 
not have to file this complaint.
    Mr. Solomon. Of course.
    Mr. Gowdy. You get to exercise your discretion and whether 
or not probable cause exists that a violation occurred.
    Mr. Solomon. Yes.
    Mr. Gowdy. So I am asking you, as part of your deliberative 
process, did you factor in whether or not Boeing can consider 
the likelihood of losing customers if the work stoppages 
continue in Washington State?
    Mr. Solomon. We believe that the evidence will show that 
Boeing was motivated by retaliation for their employees' 
Section 7 rights and their right to strike.
    Mr. Gowdy. And I will ask you again. Where is the 
retaliation? Do you agree that there are more employees at 
Boeing in Washington State now than there were when you filed 
your complaint?
    Mr. Solomon. There are now----
    Mr. Braley. Mr. Chairman, I have a point of order.
    Chairman Issa. The gentleman will suspend. The gentleman 
will state his point of order.
    Mr. Braley. Under Rule 9(e) of the committee rules, I 
object to this line of questions. It is not relevant to the 
subject matter before the committee, and it is in violation of 
the chairman's stated limitation on the scope of the hearing.
    And I would like a ruling on my objection.
    Chairman Issa. The chair will rule. The line of 
questioning, as the chair interprets it, is about the 
gentleman's decision process leading to an action already 
completed and is not work product-related to any pending case 
or prosecution.
    The gentleman is not--his point of order is not accepted. 
The gentleman may continue.
    Mr. Braley. Mr. Chairman, I have a further point of order 
then.
    Chairman Issa. The gentleman will state his point of order.
    Mr. Braley. Mr. Chairman, a prosecutor who is in charge of 
determining probable cause and then overseeing the eventual 
prosecution of a claim does not waive any work product or 
attorney-client privilege to the client that he or she 
represents. And therefore, the chairman's ruling is 
inappropriate and in violation of Rule 9(a).
    And I would like to have a ruling on that objection as 
well.
    Chairman Issa. I rule it not correct.
    Mr. Solomon, I said I would return to the question if we 
got into this situation. So if you don't mind, briefly I would 
like to--we had agreed that that which was public. Now if you 
are not aware of it being public, you certainly can say that. 
That which was public was acceptable. That which was already 
part of a decision you had made, but not directly a strategy.
    For example, if Mr. Gowdy were to ask you how you plan to 
discount that possibility or whether that was a major factor, 
minor factor, however you were going to present it as a factor, 
that would be within the line of future work. My understanding, 
and hopefully, you will acknowledge, those things which you 
already know and were part of your decision process or those 
things which are public or discoverable--in other words, 
entitled to be discovered by Boeing--would be considered to be 
reasonable to be asked about that.
    Do you still agree that that is within the bounds of this?
    Mr. Solomon. I think where we part company is that I do not 
plan to disclose what's in the investigative file, and 
regardless of what's in the----
    Chairman Issa. Because that is not discoverable and already 
discovered by Boeing?
    Mr. Solomon. Correct.
    Chairman Issa. So they are not entitled to know what you 
are going to present?
    Mr. Solomon. That is correct.
    Chairman Issa. Okay.
    Mr. Solomon. And right now, as we are sitting here, the 
parties are engaged in subpoena issues and disagreements over--
over documents and information being exchanged from--to, you 
know, each has asked others and----
    Chairman Issa. And you have my total support if, in fact, 
it is subject to ongoing debatable discovery, we do not intend 
on preempting that discovery.
    One last question. Hopefully, we will get back to Mr. 
Gowdy. You are the foremost expert on whether or not--at your 
agency whether or not something is part of consideration. We 
are not asking, I don't believe, for anything that would say 
isn't it true that if you found this, then you shouldn't have 
brought that. That would obviously exceed our scope.
    But if something is within the bounds of consideration, 
part of it, and does not dissuade the fact that some other 
action could cause an action, it would seem logical that you 
would be answering those questions.
    Can you agree and attempt to give an answer to Mr. Gowdy as 
to whether what I think you are saying, which is, yes, it is 
one of the considerations, but it is not part of our structure 
of the case. Meaning, yes, they are allowed to consider that. 
But, no, that is not the basis.
    In other words, elimination, that is not why we brought the 
case. We didn't bring the case because they had a right to do 
that. We brought the case based on the items which you have 
previously stated. If you could do that, perhaps we can move on 
without any further appeals.
    Mrs. Maloney. Well, Mr. Chairman, I----
    Chairman Issa. Once again, I am talking to the witness, 
please.
    Mr. Solomon. The part that I'm struggling with, Mr. 
Chairman, is that whether things are in the public--because 
they've been in the newspaper doesn't make them true. Because 
they've been in the newspaper doesn't mean that it's part of 
Boeing's defense. And you know, the hearing, when the hearing 
gets to the substantive part of this case, Boeing will have 
complete and ample opportunity to present their side of this 
story.
    And that's where that's----
    Chairman Issa. Okay. If we can try to go forward a little 
longer with Mr. Gowdy's questions, of those items which are not 
part of that not yet discovered.
    Yes, ma'am?
    Mrs. Maloney. May I join my colleague in objecting? I find 
it highly unusual----
    Chairman Issa. The chair has already ruled. We have had a 
colloquy----
    Mrs. Maloney. I am bringing my own objection.
    Chairman Issa. The chair has already ruled.
    Mrs. Maloney. I am bringing my own.
    Chairman Issa. It is not in order to bring duplicate 
agenda.
    Mrs. Maloney. Okay. I am bringing a different one.
    Chairman Issa. The chair recognized Mr. Gowdy.
    Mrs. Maloney. I am bringing a different objection.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Chairman Issa. What would----
    Mrs. Maloney. And my objection is that you are calling 
before your committee an ongoing case that is taking place 
right now----
    Chairman Issa. The gentlelady----
    Mrs. Maloney [continuing]. And you are calling the 
prosecutor of that case----
    Chairman Issa. The gentlelady is not recognized. Please, 
Mr. Gowdy?
    Mrs. Maloney [continuing]. Before here and no one from 
Boeing.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mrs. Maloney. Now is that intimidation, or is that----
    Mr. Gowdy. Mr. Solomon.
    Mrs. Maloney [continuing]. Prejudice, or is that just plain 
unfair?
    Chairman Issa. The gentleman will suspend. I want to make 
it clear we did not invite Boeing. We did not believe it was 
appropriate to have members of the union or members of the 
company here.
    But having said that, the minority picked its witness, and 
your witness is here. If you had wanted Boeing to be here, that 
could have been your choice.
    The gentleman is recognized.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Solomon, I certainly didn't intend for my questions to 
rile my colleagues on the other side, and I thought we had 
moved on past that. I thought that we were discussing whether 
or not you could name any employees in Washington State who had 
lost their jobs as a result of Boeing's decision to move to 
Charleston, and you said no.
    Mr. Solomon. I said not at this time.
    Mr. Gowdy. And I asked you whether or not you could name 
any employees in Washington State who had lost a benefit as a 
result of Boeing's decision, and you said no.
    Mr. Solomon. Not at this time.
    Mr. Gowdy. And I asked you where the retaliation was.
    Mr. Solomon. The decision, the theory of our complaint is 
the decision to build the second line in North Charleston was 
in retaliation for the employees' right to strike.
    Mr. Gowdy. And then we got back to whether or not, 
hypothetically, a company not called Boeing can factor in its 
likelihood of losing customers as it decides to pick a location 
for a separate, distinct new line of work.
    Mr. Solomon. Companies can make nondiscriminatory reasons 
for relocating work, making new work, whatever, and that is not 
a violation of the National Labor Relations Act.
    Mr. Gowdy. I am not going to ask you about the use of the 
word ``mothball'' because I don't have any evidence that you 
used it. Although it has been alleged to have been used in 
connection with this, I find no evidence that you used it.
    Mr. Solomon. I did not.
    Mr. Gowdy. But essentially, the remedy you are asking for 
is tantamount to mothballing it. I mean, it is very clear, 
paragraph 13, you want this line of work moved back to 
Washington State.
    Mr. Solomon. The time is up. But I would like to describe 
this, if I may?
    Chairman Issa. Please, you may respond.
    Mr. Gowdy. Mr. Chairman, I would ask for 30 more seconds, 
given the fact there was a little bit of commotion when I was--
--
    Chairman Issa. Without objection, so ordered.
    Mr. Gowdy. Thank you.
    Mr. Solomon. When the National Labor Relations Act finds a 
violation, alleges a violation, I'll say the general counsel 
issues a complaint with an allegation of Section 8(a)(3). The 
general counsel alleges as a remedy to return to the status quo 
ante. That means where things would have stood, but for that 
discrimination. That----
    Mr. Gowdy. I have one final question, and I will be through 
along those lines.
    Mr. Solomon. Well, could I just say one thing before you do 
it?
    Mr. Gowdy. Sure.
    Mr. Solomon. That is our--we have what we call notice 
pleadings, that our complaint is to put people on notice this 
is the violation. This is the remedy. But that is the beginning 
of the conversation. It is not the end of the conversation.
    Mr. Gowdy. It is not an exclusive remedy. You would settle 
for something less than that?
    Mr. Solomon. Boeing will have every opportunity at the 
hearing to establish that it would be unduly burdensome for 
them to take the second line back to Washington State, and that 
will be heard by the judge.
    Mr. Gowdy. All right. I have one more question, and then I 
am done. If Boeing had picked Brazil instead of Charleston, 
what would the remedy be?
    Mr. Solomon. It would be the same. We would have--the 
complaint would look the exact same as it does now.
    Mr. Gowdy. What jurisdiction do you have in Brazil?
    Mr. Solomon. It is not a question of Brazil. It is a 
question of Boeing, if we have jurisdiction over Boeing. If 
Boeing had completely moved to Brazil, it would be out of the 
jurisdiction of us.
    Mr. Gowdy. China? Same answer?
    Mr. Solomon. Yes.
    Mr. Gowdy. India?
    Mr. Solomon. Yes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    Ms. Norton.
    Ms. Norton. My good friend Mr. Gowdy is a former U.S. 
attorney and ought to know the difference between asking legal 
hypotheticals, which are appropriate, and trying to try this 
case before this committee. When he asks Mr. Solomon to name 
employees who have lost their jobs or words to that effect, he 
has gone to matters that could only be put in evidence and is 
highly inappropriate.
    Let me----
    Chairman Issa. Would the gentlelady yield for just a 
question? I will give you the additional time.
    You know, not being as knowledgeable as all of you 
prosecutors here, isn't it true that normally a case begins by 
displaying facts not in dispute, and that is normally the 
beginning of a case. And that would apparently likely be a fact 
not in dispute, and that is what I thought----
    Ms. Norton. What would be the fact not in dispute, Mr. 
Chairman?
    Chairman Issa. That no one had yet lost their job. Nobody 
has lost their job.
    Ms. Norton. I don't know if that is in dispute or not, Mr. 
Chairman.
    Chairman Issa. Well, the gentleman seemed to be asking to 
get an answer.
    Ms. Norton. Yes, well, he was asking what he had heard in 
the newspapers. You don't know what is in dispute because there 
is no record in this case, Mr. Chairman. And you have said that 
you will, in fact, protect the process, and that is all I am 
trying to do here.
    In fact, I would like to--my questions go to process. First 
of all, I would like to congratulate the lawyers in the case 
because while there have been frequent complaints that go to 
remedy, that go to motivation, I found your testimony, Mr. 
Miscimarra, your testimony, Mr. Getman, to be both lawyer like. 
In fact, they educated me.
    But let me give you a hypothetical because I do think a 
legal hypothetical is always allowed. This case is nothing at 
the moment. No record, no nothing. It could be found in favor 
of those who want the work in South Carolina. It could be found 
in favor of those in Washington.
    And I have no idea, particularly when reading your 
testimony, which was like briefs, as to how this could be 
decided. This is difficult, these cases involving capital 
investment.
    Now let me give you this hypothetical. We know this case 
might go to the National Labor Relations Board. So, you know, 
the whole board that is supposed to hear it has not heard it. 
There is no record for them to hear.
    It could go to the Court of Appeals. It could even go to 
the Supreme Court. I agree with you, Mr. Miscimarra. Times have 
changed. Nobody, in fact, in 1933 had in mind this, and that is 
a question for Congress to consider. What do you do when the 
economy changes in this way? You really have me to thinking 
about that.
    But let me ask you this. Suppose we were now before the 
board or the Court of Appeals, and those hearings go on for 
some time. And in the middle of those proceedings, a committee 
of Congress called Mr. Solomon or other counsel before the 
committee.
    In your judgment, as members of the bar, as officers of the 
court, I ask you would it be appropriate for this committee in 
the middle of proceedings of the board, the Court of Appeals, 
to summon, whether voluntarily or not, counsel who are engaged 
in their business before one of those bodies?
    Mr. Miscimarra.
    Mr. Miscimarra. Yes. My mother actually taught me if you 
ever receive a congressional subpoena, you should comply with 
it. [Laughter.]
    Ms. Norton. Mr. Miscimarra----
    Mr. Miscimarra. Yes?
    Ms. Norton [continuing]. Then you better listen to my 
question. It said either voluntarily because you wanted to 
avoid, of course, the unseemliness of a subpoena, or by 
subpoena. So do not take the subpoena--as a member of the bar, 
I would hope you would respond to a subpoena.
    I am asking you about the appropriateness, as you well 
understand, of asking counsel in the middle of proceedings 
before a court of law to come before a political body. That is 
my question, Mr. Miscimarra.
    Mr. Miscimarra. Yes, and my response, Representative 
Norton, would be--would be this. I know that the committee has 
many, many lawyers that focus on separation of powers. I've 
spent almost 30 years studying very hard and having a great 
deal of experience with----
    Ms. Norton. Mr. Miscimarra, I have only 5 minutes. You see 
these other people have taken more time than they were even 
allotted.
    Mr. Miscimarra. Sure.
    Ms. Norton. I am just asking you is it appropriate? You are 
a member of the bar. Is it appropriate in the middle of the 
proceedings before the Court of Appeals or before the board for 
a committee of Congress to have a counsel come here? Yes or no, 
sir?
    Mr. Miscimarra. Yes. My response, Representative Norton, is 
that is not an area--I've spent 30 years focused on major 
business restructuring. I've not spent 5 minutes focusing on 
the appropriate response if you get a congressional subpoena.
    Ms. Norton. All right. But of course, we are not talking 
about a subpoena necessarily.
    Mr. Miscimarra. Okay.
    Ms. Norton. But I respect what you say. You are not sure 
there.
    Professor Getman, you have spent 50 years looking at these 
matters.
    Mr. Getman. I wish you wouldn't have pointed that out, 
Congresswoman. [Laughter.]
    Ms. Norton. You pointed it out.
    Mr. Getman. Good point. I'm very concerned about the 
appropriateness of this hearing. In fact, that's the reason 
that I'm here. I want to point out quickly that everything I've 
written, I've always been critical of the National Labor 
Relations Board at some point. So I am far from a flunky of the 
board.
    But on the other hand, I believe that the board plays a 
vitally important function and that--and any effort, whether 
intentional or not, that would tend toward intimidation of the 
board in its function of protecting the rights of workers seems 
to me to be a terrible mistake, no matter how popular it may 
be.
    And I really want to defend the board for probably the 
first time in my life and say that the board's processes that 
are underway are legitimate, and I think it's inappropriate to 
engage in any effort which looks as though it might interfere 
with that.
    Chairman Issa. I thank the gentleman.
    Mr. Farenthold.
    Ms. Norton. You are going to cut me off when you gave Mr. 
Gowdy extra time, when you, yourself, have interrupted people 
who were doing questions?
    Chairman Issa. I am trying to move this along because at 
2:30 p.m., the Governor will be here. I am doing the best I 
can.
    Ms. Norton. Oh, heaven forbid. Heaven forbid that we are 
not through our questions before the Governor comes.
    Chairman Issa. Thank you, gentlelady.
    Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    I am going to try to keep this, in deference to the subject 
matter, more at the 30,000-foot level than in the weeds. But I 
did have just a quick personal question for Mr. Solomon.
    I noticed you were from Seattle or you started your career 
in Seattle?
    Mr. Solomon. I started my career at the----
    Mr. Farenthold. And how much time did you spend in Seattle?
    Mr. Solomon. Hmm?
    Mr. Farenthold. How much time did you spend in Seattle?
    Mr. Solomon. I was--about 2 years total.
    Mr. Farenthold. Okay. So it would be fair to say you 
probably still have some friends there?
    Mr. Solomon. Yes.
    Mr. Farenthold. All right. Let me visit a little bit about 
this. You talk about--I guess my question is, has this ever 
happened in the past where there has been an action against a 
business for starting a whole new line of business somewhere 
else, or is this a first?
    Mr. Solomon. There has been a line of cases as long as 
there's been an act of what have been called runaway shops. And 
companies have moved from the north to the south, from various, 
southwest, and----
    Mr. Farenthold. But I mean, that is typically moving 
people. That is not new people.
    Mr. Solomon. The theory of our complaint does not depend on 
whether it's new work or not.
    Mr. Farenthold. All right. So let me ask you, do you 
envision a scenario where any set of facts that a company was 
moving from a union State to a right-to-work State after a 
strike, that the strike wouldn't be--or the move wouldn't be 
considered a retaliation?
    Mr. Solomon. Congressman, I cannot conjecture about cases 
and fact patterns that are not before me.
    Mr. Farenthold. All right. Were there any discussions with 
the White House or the administration before pursuing this 
case?
    Mr. Solomon. Absolutely not.
    Mr. Farenthold. All right. Now we are focused in this 
country right now on putting people back to work and getting 
jobs, be they union jobs or nonunion jobs. We have unemployment 
at over 9 percent.
    Do you think that this case and the uncertainty that it 
creates--not just with Boeing, but with other businesses 
looking to expand--might have a chilling effect on creating 
jobs?
    Mr. Solomon. Congressman, the National Labor Relations Act 
applies to big companies, little companies, whether the impact 
would have been $750 or $750 million. I have to issue complaint 
if the--if I have reasonable cause to believe that the National 
Labor Relations Act has been violated.
    Mr. Farenthold. And do you think the amount of delay, that 
these cases typically run for years, again, do you think the 
delay might have an effect on companies and creating jobs and 
the amount of time and money that it is costing to do it?
    Mr. Solomon. I would answer that question by telling you 
that I never--I was a reluctant issuer of this complaint. I 
wanted it settled. I thought it was in everybody's best 
interest to be settled. The parties have a longstanding 
relationship with each other, going in the past, in the future, 
and I would have preferred them working this out.
    Mr. Farenthold. All right. Let me ask Mr. Miscimarra. You 
heard Mr. Solomon say that this is kind of the ordinary course 
of business. In your practice in this area, would you consider 
this to be a unique or unprecedented, this case?
    Mr. Miscimarra. Well, I think there are two things maybe 
that one would consider unique. One is very few companies have 
$750 million sitting around, and that's one of the problems 
when you have a process that is so protracted in these cases.
    I do think on the theory of the case, I think it's very 
unusual, and I disagree with Professor Getman on this. Section 
8(a)(3), which is the basis of the runaway shop claim, 
prohibits discrimination in relation to terms and conditions of 
employment.
    Mr. Farenthold. Okay.
    Mr. Miscimarra. And I'm not aware of any precedent that 
suggests an investment decision would be----
    Mr. Farenthold. All right. I am sorry. I am just about out 
of time. I have one more question for Mr. Solomon.
    Would the decision have been the same to prosecute this if 
they were moving from Washington, say, to California or another 
State that wasn't a right-to-work State?
    Mr. Solomon. Under these same facts, yes.
    Mr. Farenthold. Okay. Thank you.
    Chairman Issa. If the gentleman would yield? So if they 
move between two union--the same union in two different 
locations, it would still be retaliation, if it was all 
International Machinists?
    Mr. Solomon. Well, I don't think we'd be--I don't think 
machinists would have brought a charge if it was going from one 
machinist plant to another.
    Chairman Issa. So if the machinists win, there is no 
problem. If the machinists feel they are losing, then we have a 
potential problem is what you are saying?
    Mr. Solomon. In this case, it was machinists to a nonunion 
facility, and we----
    Chairman Issa. So, again, Ms. Ramaker, the union set up a 
failure, treated them badly. They voted the union out, and the 
reprisal is that they brought this claim for your reluctant 
consideration?
    Mr. Solomon. That is a charge that has been filed yesterday 
with us.
    Chairman Issa. Thank you.
    Okay. I would ask unanimous consent my letter to you, Mr. 
Solomon, be placed in the record only because it cites some of 
the constitutional issues of why we are here and why there is 
an independent oversight responsibility.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.062
    
    [GRAPHIC] [TIFF OMITTED] T1079.063
    
    [GRAPHIC] [TIFF OMITTED] T1079.064
    
    [GRAPHIC] [TIFF OMITTED] T1079.065
    
    [GRAPHIC] [TIFF OMITTED] T1079.066
    
    Chairman Issa. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    In looking at the National Labor Relations Act, Section 
8(a), it describes unfair labor practices. ``It shall be an 
unfair labor practice for an employer to interfere with, 
restrain, or coerce employees in the exercise of the rights 
guaranteed under Section 7,'' and then it goes on to spell out 
other violations.
    I want to, for the purposes of an instructional exchange 
here, Mr. Solomon, so it is illegal for any employer to make 
coercive statements to their employees?
    Mr. Solomon. Yes.
    Mr. Kucinich. Is it illegal for employers to threaten their 
employees?
    Mr. Solomon. Yes.
    Mr. Kucinich. If employees engage in a strike, is that a 
legally protected activity?
    Mr. Solomon. It is, Congressman. And if I could take just a 
moment, there's also Section 13 of the National Labor Relations 
Act that, again, Congress passed in 1935 that says, ``Nothing 
in this act, except as specifically provided for herein, shall 
be construed so as either to interfere with or impede or 
diminish in any way the right to strike or to affect the 
limitations or qualifications on that right.''
    Mr. Kucinich. So if a company threatens its employees for 
engaging in strikes now or in the future, is it a violation of 
the National Labor Relations Act?
    Mr. Solomon. Yes.
    Mr. Kucinich. Now, Professor Getman, you said that 
officials of Boeing have confessed to violations of the law in 
this regard. Did you not say that?
    Mr. Getman. I said that's the--what I get from the 
statements included in the complaint. One can always say maybe 
they could explain it. But on the surface, there seems to be a 
very powerful case along the lines that you are suggesting of 
attempting to intimidate and of retaliation, yes.
    Mr. Kucinich. So the Seattle Times reported that Boeing 
executive vice president Jim Albaugh said, ``The overriding 
factor was not the business climate, and it was not the wages 
we are paying people today. It was that we can't afford to have 
a work stoppage every 3 years.'' That is a direct quote.
    Now, Professor Getman, in the context of what you know 
about the National Labor Relations Act and in the context of 
what was going on in Washington State at the time, when you 
hear that quote, what does that make you think?
    Mr. Getman. Well, I think it's a double unfair labor 
practice, actually. That is, the statement itself is a form of 
intimidation. Just making that statement because you know that 
the workers at Boeing are going to hear this, and it's like 
telling them, ``Don't strike, or this is what you're going to 
get.''
    Plus, it's an indication that they made the move for that 
purpose, which is a separate violation. There are actually two 
violations caught up in that one phrase--one of intimidating 
and one of taking away work.
    Mr. Kucinich. So then what would your answer be, as a 
professor of law in this area, as to whether or not Boeing 
unlawfully retaliated against its Washington State workers who 
are lawfully exercising their right to strike?
    Mr. Getman. Now here I have to be professorial and lawyer 
like. If that's all the evidence, I know that there's a very 
strong prima facie case. Let the hearing go forward. Let Boeing 
explain. Let them bring out whatever evidence they have.
    I'm not willing to convict Boeing on the basis of this 
statement. I am willing to say it's proper to force them to 
explain what does this mean? Is it in any way different from 
the way it appears?
    Mr. Kucinich. But if, in fact, Boeing planned to transfer 
jobs away from Washington for the purposes of retaliating 
against the workers in Washington who were lawfully exercising 
their right to strike, would that be a violation of the 
National Labor Relations Act?
    Mr. Getman. Yes.
    Mr. Kucinich. Okay. I yield back.
    Chairman Issa. Thank you.
    The gentleman from Florida, Mr. Ross?
    Mr. Ross. Thank you, Mr. Chairman.
    Mr. Solomon, the standard of proof necessary to prosecute, 
the standard to prosecute is what?
    Mr. Solomon. To bring the complaint?
    Mr. Ross. Not to bring the complaint, but to be successful 
in prosecution.
    Mr. Solomon. Preponderance of the evidence.
    Mr. Ross. So it is not overwhelming. It is not clear and 
convincing. It is not beyond a reasonable doubt. And you feel 
that in your negotiations between the sides that you had 
sufficient evidence--I am not asking what it is. But you had 
sufficient evidence at that time to meet that preponderance of 
the evidence burden?
    Mr. Solomon. Yes.
    Mr. Ross. Okay. Now, with regard to standing, NLRB is there 
to just protect union workers?
    Mr. Solomon. Absolutely not.
    Mr. Ross. And that is why the machinists were able to 
because they had standing, they were able to file this 
complaint. Now, nonunion workers, the NLRB is there to protect 
them as well. Correct?
    Mr. Solomon. Absolutely.
    Mr. Ross. And what would their standing--is there a 
different standard for standings between one or the other?
    Mr. Solomon. No. We investigate every single charge that's 
filed in every one of our regional offices. They can be filed 
by any individual, any company, any union.
    Mr. Ross. But they are no lesser than each other? Whether a 
union worker or a nonunion worker, their standing is the same?
    Mr. Solomon. That is correct, if they're the charging 
party.
    Mr. Ross. So if someone moved to intervene in this 
particular case who is nonunion, they should have standing and 
should be allowed to intervene, shouldn't they?
    Mr. Solomon. The intervention----
    Mr. Ross. They should, shouldn't they? I mean, unless there 
is some extenuating circumstance that says you don't have 
standing because you are not an employee or you are not a 
resident there.
    Mr. Solomon. Yes. There is longstanding--there are 
longstanding board principles that apply to intervention. The 
judge in Seattle was the one who ruled that the employees did 
not have standing, and that is on appeal to the board in 
Washington.
    Mr. Ross. What was your position on that? Did you support 
or oppose that motion to intervene?
    Mr. Solomon. We opposed it.
    Mr. Ross. Well, why is that?
    Mr. Solomon. Under longstanding board principles, the 
employees' interests will be adequately represented by Boeing.
    Mr. Ross. Not by the NLRB because of why? I mean, you are 
there for equal standing. Correct? In fact, wasn't one of the 
reasons that Boeing employees wanted to intervene in this case 
was to show that there was no union bias. That at the time 
Boeing was in South Carolina, they were partly unionized.
    If they had stayed unionized, would you have opposed the 
intervention?
    Mr. Solomon. Yes.
    Mr. Ross. Really?
    Mr. Solomon. Yes. [Laughter.]
    Mr. Ross. Now--with regard to your remedy----
    Mr. Solomon. Yes.
    Mr. Ross [continuing]. And I know you have stated, in fact, 
you have stated rather strongly in your complaint, I guess on 
page 7, that you seek as your remedy to have the Dreamliner 
project removed from South Carolina and taken to the great 
State of Washington. Correct?
    Mr. Solomon. We asked for the second line to be taken back 
to Seattle.
    Mr. Ross. Which, and as a matter of fact, the only facility 
here is the Dreamliner facility. Correct?
    Mr. Solomon. As I said, Congressman, this is the----
    Mr. Ross. No, not----
    Mr. Solomon [continuing]. The status quo remedy that is 
always sought by the board in an 8(a)(3), and it begins the 
discussion.
    Mr. Ross. But you don't have to seek that remedy. You have 
autonomy. You don't have to seek that remedy.
    Mr. Solomon. Yes.
    Mr. Ross. Now what I am saying is, is that how can you say 
in your statement that we wish the South Carolina workers no 
harm, and even your office go to painstaking lengths to say, 
``Hey, we don't want to put people out of work in South 
Carolina,'' and yet adamantly allege as your sole remedy to 
have the removal of that facility from South Carolina? Can you 
reconcile that?
    Mr. Solomon. I will try again to explain that this is the 
standard remedy that is pleaded by the general counsel in every 
8(a)(3) violation, to return to what would have happened absent 
the discrimination.
    Mr. Ross. But it doesn't have to be, doesn't it? It doesn't 
have to be. It doesn't have to be. And you know, we are here 
because you are saying, oh, well, by golly, we are intervening 
in a due process proceeding.
    Well, the last time I looked that the NLRB was an arm of 
the U.S. Congress. It is not a constitutional judicial body, 
and therefore, we have oversight, and that is why we are here. 
But more importantly, to me, is when we allow you the 
opportunity to stand on privilege in not responding, and yet we 
also politically have to look at the fact and the reality that 
we have thousands of jobs that are at stake here.
    And then I look at Mr. Getman who says what is the urgency? 
Why do we have an urgency?
    Ms. Ramaker, how many jobs are at stake here in South 
Carolina?
    Ms. Ramaker. Thousands.
    Mr. Ross. Thousands. Mr. Whitman, with your own 
organization, how many jobs are at stake here?
    Mr. Whitman. Hundreds.
    Mr. Ross. And Mr. Getman, would you not say that probably 
the most crucial issue to our country today is jobs? And yet 
you have the gall to state that there is no sense of urgency, 
when you can look at the Dorsey Trailer case and see that, in 
fact, as Mr. Miscimarra pointed out, that it is almost on point 
with this one.
    And in fact, in Dorsey Trailers, there were actual 
violations, but the court found that they could not be--they 
were not penalized for relocating their plant from Pennsylvania 
to Georgia.
    Mr. Getman. I got lost somewhere in that torrent of words.
    Mr. Ross. I understand that because I am a practicing 
lawyer. Now let me ask you this question. [Laughter.]
    Chairman Issa. The gentleman's time is expired.
    Mr. Ross. I will yield back.
    Mrs. Maloney. Point of information. The gentleman----
    Chairman Issa. Does the gentlelady have a question?
    Mrs. Maloney. I have a corrective point of information.
    Chairman Issa. Well, I will entertain your comment, but 
there is no such thing as a point of information, please.
    Mrs. Maloney. But the gentleman stated that the NLRA was an 
arm of Congress. It is totally separate and independent. I just 
wanted to get that information, point of correction.
    Chairman Issa. I believe the gentleman's statement that it 
was not part of the other branch, the third branch of 
Government was correct.
    At this time, I would ask unanimous consent that the 
quotes, the entire quotes by the gentleman Mr. Albaugh be 
placed in the record.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.067
    
    [GRAPHIC] [TIFF OMITTED] T1079.068
    
    [GRAPHIC] [TIFF OMITTED] T1079.069
    
    [GRAPHIC] [TIFF OMITTED] T1079.070
    
    [GRAPHIC] [TIFF OMITTED] T1079.071
    
    [GRAPHIC] [TIFF OMITTED] T1079.072
    
    [GRAPHIC] [TIFF OMITTED] T1079.073
    
    [GRAPHIC] [TIFF OMITTED] T1079.074
    
    [GRAPHIC] [TIFF OMITTED] T1079.075
    
    [GRAPHIC] [TIFF OMITTED] T1079.076
    
    [GRAPHIC] [TIFF OMITTED] T1079.077
    
    [GRAPHIC] [TIFF OMITTED] T1079.078
    
    [GRAPHIC] [TIFF OMITTED] T1079.079
    
    [GRAPHIC] [TIFF OMITTED] T1079.080
    
    [GRAPHIC] [TIFF OMITTED] T1079.081
    
    [GRAPHIC] [TIFF OMITTED] T1079.082
    
    [GRAPHIC] [TIFF OMITTED] T1079.083
    
    [GRAPHIC] [TIFF OMITTED] T1079.084
    
    [GRAPHIC] [TIFF OMITTED] T1079.085
    
    Chairman Issa. The gentleman from Iowa, Mr. Braley, is 
recognized.
    Mr. Braley. Well, what Mr. Ross said, and it is in the 
record, is the NLRB is an arm of the U.S. Congress, which is 
blatantly false. It is part of the executive branch. And when 
they are performing an adjudicative function, it is a quasi-
judicial proceeding, and that is why we have been talking about 
due process throughout this hearing.
    Thank you, Professor Getman, for not convicting Boeing on 
the basis of the very tiny record we have been talking about 
here today. And I said at the beginning of this hearing that if 
you remember one thing about what is going on here today, 
remember due process.
    Because there has been many people talking about this as 
being a baseless complaint. Well, folks, if you remember 
anything about due process, think of all those Western movies 
you have seen where a posse has cornered a horse thief, and 
somebody in the posse says, ``Let's hang him.'' And the sheriff 
says, ``No, let's give him a fair trial, and then we will hang 
him.''
    That is not due process. And we are not here today to 
substitute our judgment for the NLRB, and that is what is wrong 
with this proceeding. Now, since Mr. Kucinich brought this up, 
let's take a look at the statement by Mr. Jim Albaugh that was 
made on March 2010 to the Seattle Times. Can we play that now?
    [Video playing.]
    Mr. Albaugh. [On video.] But again, the overriding factor 
was not the business climate, and it was not the wages we are 
paying people today. It was that we can't afford to have a work 
stoppage every 3 years. We can't afford to continue the rate of 
escalation of wages as we have in the past. You know, those are 
the overriding factors.
    [End of video.]
    Mr. Gowdy. Would the gentleman yield?
    Mr. Braley. Now, Mr. Solomon----
    Mr. Gowdy. Would the gentleman yield?
    Mr. Braley. I only have 5 minutes, Mr. Gowdy, and I want to 
complete this. I will not yield.
    Mr. Gowdy. I am happy to stop the clock.
    Mr. Braley. I will not yield. I will not yield.
    Mr. Gowdy. Will you put the remainder of the document in 
evidence under the rule of completeness?
    Mrs. Maloney. You can't stop the clock. You can't--you are 
not the chairman.
    Mr. Braley. You will have an opportunity. Mr. Chairman, I 
would ask for order.
    Chairman Issa. I would advise the gentleman that by 
unanimous consent, the entire document is in the record. We 
will also post the entire video on the Web site.
    The gentleman may continue.
    Mr. Braley. And can I have all of my time reinstated, Mr. 
Chairman?
    Chairman Issa. You have all your time. One of the things 
that we do back here real well is they actually stop when that 
kind of stuff starts. So they will continue as you now 
continue.
    Mr. Braley. Great. Now one of the things that we know, Mr. 
Solomon, is that there is a huge difference in the law between 
discrimination and retaliation, and I want to make that clear 
as well. Because if you are discriminating against an employee 
on the basis of race, religion, sex, gender, some other 
protected classification, that is a violation of the law.
    And yet, if you retaliate against that employee because 
they engage in the process of protecting their rights by filing 
a complaint, that is a separate and distinct violation, is it 
not?
    Mr. Solomon. Correct.
    Mr. Braley. And so, when you are bringing a charge against 
Boeing for retaliation, that has nothing to do with the 
underlying action, but whether, in fact, this video and other 
evidence you plan to present at that hearing will provide a 
legitimate basis to prove that Boeing took the action it did 
because of a desire to retaliate against protected employees. 
Isn't that correct?
    Mr. Solomon. That is correct.
    Mr. Braley. Now, Mr. Miscimarra, you had a great comment in 
your statement, and you said there is not yet an evidentiary 
record in the Boeing case. And that is really what part of the 
problem is here today, is it not?
    Mr. Miscimarra. The process certainly contributes to the 
problems that everyone is talking about.
    Mr. Braley. Right. And you, in fact, made the comment that 
you greatly respect the members of the board, the acting 
general counsel, and others employed at the agency, a fact that 
is--or a feeling that is apparently not shared by some of my 
colleagues. But one of the things you mentioned at the 
conclusion of your wonderful appellate brief, which has 79 
footnotes. I believe that is a new record for an opening 
statement, Mr. Chairman. It was eloquent and well argued.
    You happened to mention the Dubuque Packing Co. case. And 
my wife grew up in Dubuque, IA, in a working class home built 
by her father just down the street from the Wahlert family 
mansion that owned the Dubuque Packing Co. Now is the Dubuque 
Packing Co. in existence today?
    Mr. Miscimarra. I don't know the answer to that question.
    Mr. Braley. It is not, sir. It is gone with the wind. A 
company that used to employ 3,500 employees, pay a payroll of 
$20 million in the 1960's and, Mr. Chairman, won the gold medal 
for the best canned ham at the California State Fair in 1960 
and 1961, a fact I knew you would appreciate, is gone. And that 
is what the National Labor Relations Board is all about, is 
protecting the rights of workers and employers and providing a 
fair process.
    Now that process may take too long, and I wouldn't disagree 
with you on that. But we know that people like Judge Merridge 
in the Northern District of Virginia were successful in 
significantly decreasing the amount of time it takes to process 
contested cases if they really put their mind to it.
    So rather than complain about the length of time and the 
burden on the employer, why not just improve the process so 
that it is fair and more responsive to the needs of everyone?
    Chairman Issa. The gentleman can answer briefly, but his 
time has expired.
    Mr. Miscimarra. Yes, the only thing that I would say is 
there are also issues that I and others think are significant 
in relation to the interpretation of law and the remedy being 
sought in the case.
    Chairman Issa. With that, we go to the gentleman from South 
Carolina, Mr. Wilson. And would you yield for just a quick 
moment?
    Mr. Joe Wilson. Certainly, Mr. Chairman.
    Chairman Issa. Thank you.
    Mr. Solomon, since we discovered that everyone seems to be 
citing this video, both in print and writing, would you agree 
to try to get the entire testimony on your Web site? We have 
discovered that only the one line being quoted here and not the 
rest of this gentleman's comments are on your Web site.
    Would you attempt to make that record complete on your own 
Web site for information purposes?
    Mr. Solomon. Well, Congressman, I think that what is on our 
Web site is what is quoted in our complaint. That is, again, 
just notice pleading, and I would respectfully say that all of 
this is going to come out at the hearing.
    Chairman Issa. Okay. So if you are declining, I will say 
that the House's Web site at the Oversight Committee will have 
the entire interview with all of its various offsetting lines 
that I am sure Boeing will bring up in their defense.
    The gentleman is recognized.
    Mr. Joe Wilson. Thank you, Mr. Chairman.
    And Ms. Ramaker, I want to thank you for your courage to be 
here today. You provide a human face of what I believe this is 
about, and that is, as you indicated, denying your ability to 
have a job, your ability to choose your job.
    I want to thank you for pointing out that you are talking 
about possibly 3,800 jobs, 3,800 families could be affected. 
Actually, it is really 9,000 jobs with construction and 
suppliers throughout the State of South Carolina.
    I want to thank you, too, my colleagues needed to know that 
the facilities are in place. A 1.1 million square foot facility 
has just been completed. There are other buildings. These 
buildings can only be used for aircraft manufacture. And as the 
Seattle Times editorialized on Monday, the money has been 
spent, over $1 billion, by Boeing, by the people of South 
Carolina.
    And Mr. Whitman, I want to thank you for your efforts of 
giving opportunity to the people of South Carolina for jobs. 
Can you tell us what these jobs are, and what is the pay scale?
    Mr. Whitman. We supply a broad spectrum of jobs in response 
to Boeing's needs for contract staffing. We have people who 
monitor safety, part of the safety program there, all the way 
through graduate engineers. The pay scale is anything from $15 
to $55 an hour.
    Mr. Joe Wilson. And so, these are great opportunities for 
the people?
    Mr. Whitman. They are. These jobs pay well above the local 
average. And again, we're a contract agency, but we also 
provide an entry point for many people to join Boeing as full-
time regular employees. And that happens all the time.
    Mr. Joe Wilson. And we have, sadly, record unemployment in 
South Carolina at this time.
    Mr. Whitman. We do have record unemployment. I can tell you 
for any time we post a job, we have literally hundreds of 
people apply for every single job that we post out there. 
Sadly, they're not all qualified, but that's the state of 
things right now in the market.
    Mr. Joe Wilson. And Mr. Solomon, the people of South 
Carolina, a huge majority, have really been shocked at the 
level of influence and power of unions in our country. Earlier 
this year, a union out of Washington sued the Governor of South 
Carolina for comments that she made in support of the right-to-
work law.
    And I am just a real estate attorney, but I was startled. I 
thought we had free speech, and I really thought that public 
officials could make statements that they believed. But she is 
being sued, her right to speak.
    And then, sadly, earlier this year, you announced that you 
would be suing the people of South Carolina, or could, along 
with Arizona, Utah, South Dakota. Each one of these States had 
a referendum last year to amend the constitution to provide for 
secret ballot.
    Of all the States that I mentioned, I am very proud South 
Carolina was number one. Eighty-six percent of the people of 
our State voted to have secret ballots, Democrat and 
Republican. And it is just shocking to think that such a 
lawsuit could be filed.
    And then we are here today. Where I have been working on 
economic development all my life, it never occurred to me that 
the Federal Government could intrude and deny jobs to the 
people of our State. What would you say, what advice do you 
have to people who are the--1,000 people who have already been 
employed, the thousands more that may be employed, what advice 
do you have to them as to what they should do in the future?
    Mr. Solomon. I think that, you know, Boeing is free to use 
the South Carolina plant any way it sees fit for 
nondiscriminatory reasons. We have not asked to close the South 
Carolina plant. As I have said repeatedly here, that the 
allegation or the remedy that is sought in the--in the 
complaint is only the beginning of the conversation, and Boeing 
will have every opportunity to say that if they can establish 
that the moved--the second line to Washington State would be 
unduly burdensome that the judge will make a decision, and the 
board and the courts will make a decision.
    But if I could, as to the preemption suit, I would like to 
say that the National Labor Relations Board loves secret ballot 
elections. The problem is that the amendment that passed said 
that the only way employees can become unionized is through a 
secret ballot election.
    And under our Federal law, that is not the only way that 
employees can choose union representation. And as a result, the 
amendments directly conflict with Federal law and are, 
therefore, preempted. And I have no choice but to file these 
suits.
    Chairman Issa. I apologize. The gentleman's time has 
expired.
    Mr. Scott.
    Mr. Scott. Thank you, sir.
    I just have a few questions. For the sake of redundancy, I 
want to just clarify a couple of definitions. I know, Mr. 
Miscimarra, you are not a grammarian necessarily. But please 
help me with some definitions here.
    Mr. Miscimarra. Sure.
    Mr. Scott. The first definition I want is the definition to 
transfer. Part of this suit is about transferring assets from 
one location to the other location, and I keep hearing Mr. 
Solomon talk about transferring back the second line.
    Can you help me with the definition of ``transfer of 
assets?''
    Mr. Miscimarra. Well, for purposes of Section 8(a)(3), the 
conventional--what we see in the cases with alleged 
discriminatory transfers, work or equipment moves from point A 
to point B.
    Mr. Scott. Work or equipment. And the whole notion of 
losing jobs in one location to the other location, can you help 
me with the definition of ``created'' versus ``transfer?'' If 
you transfer assets and you transfer jobs, isn't that different 
than creating assets and creating jobs?
    Mr. Miscimarra. I think, although I am no grammarian----
    Mr. Scott. Of course not.
    Mr. Miscimarra. My interpretation of to refer, for example, 
to the Boeing situation----
    Mr. Scott. Yes.
    Mr. Miscimarra [continuing]. If employment is increasing in 
South Carolina and employment is also increasing in Washington 
State, I am not aware of any cases that would suggest that 
constitutes a transfer.
    Mr. Scott. Mr. Solomon, the complaint alleges that Boeing 
decided to transfer its assets or its second line for the 787, 
for the Dreamliner, from Puget Sound to North Charleston. Is 
that correct?
    Mr. Solomon. That's correct.
    Mr. Scott. But as I understand it, this second 787 
Dreamliner, the assembly line, did not actually exist in Puget 
Sound. Is that correct?
    Mr. Solomon. That is correct.
    Mr. Scott. So how do you transfer assets that do not exist?
    Mr. Solomon. The theory of our complaint is but for the 
unlawful motivation of Boeing----
    Mr. Scott. Yes, sir. Let me ask the question one more time.
    Mr. Solomon [continuing]. They would have built the second 
line in Everett.
    Mr. Scott. Let me ask--you have said three times today 
``transfer back the second line.'' How do we transfer assets 
that simply do not exist? Can we, in fact, transfer an 
intangible that doesn't exist back to a place?
    Mr. Solomon. The second line does exist.
    Mr. Scott. It exists now, but did it exist in Washington 
State?
    Mr. Solomon. No.
    Mr. Scott. So can you transfer, can you literally transfer 
back something that did not exist there?
    Mr. Solomon. The--you know, I would say that you're--you're 
overparsing the word ``transfer.''
    Mr. Scott. I am assuming----
    Mr. Solomon. The theory of our complaint is that the second 
line would have been built in Everett, absent the unlawful 
discrimination.
    Mr. Scott. So we can't really agree on the definition of 
transfer or assets or tangible or intangible.
    Mr. Solomon. Yes.
    Mr. Scott. So did Boeing transfer any jobs then from the 
existing location in Washington State to North Charleston? The 
key word being ``existing.''
    Mr. Solomon. Not at this time, but there is the possibility 
that as planes are built in North Charleston, that those planes 
would not be built in Everett.
    Mr. Scott. The general counsel of Boeing, Michael Luttig, 
wrote you a letter on May 3rd, and he explained their decision 
to build a new, a new assembly line. So a new assembly line 
would not be the same as transfer. Is that accurate?
    Mr. Solomon. Again, I don't think that this parsing of 
definitions is going to get us anywhere. Boeing has a different 
view of this case than we do, and they will have ample 
opportunity on the record to present the facts as they see 
them.
    Mr. Scott. Mr. Solomon, as I am not a lawyer, I just want 
to work on definitions. Because if your case is built on the 
fact that Boeing transferred assets from one location to 
another location that never existed at the first location, it 
is really difficult for us to digest that we are actually 
having a real conversation about the transfer of assets.
    And if no one lost their job in the first location, it is 
really hard for us to digest the fact that 1,000 employees and 
a $1 billion investment in the second location has anything to 
do with not the loss of, but the actual creation of more jobs 
at the first location.
    So it is really hard for us to digest, as non-lawyers, how, 
in fact, we have a case, which we consider baseless, because if 
you are not really transferring assets from Washington State to 
North Charleston, you are not really losing any jobs in 
Washington State because of North Charleston, then where is the 
base of the case?
    Mr. Solomon. The case, I'll try again, that the second 
line----
    Mr. Scott. Yes, sir. Please. I am just trying to figure it 
out.
    Mr. Solomon [continuing]. Would have been built in Everett 
and not in North Charleston.
    Mr. Scott. How do we know that, though?
    Mr. Solomon. That is the theory of our complaint. That is 
based on the evidence that we gathered.
    Mr. Scott. So, Mr. Luttig, the general counsel for Boeing, 
simply said that they were creating a new line. So, from a 
competitive perspective, from a competitive perspective, is it 
not good to have dual locations perhaps?
    If, in fact, the threat of a shutdown allows for them to 
have dual locations, do we not find ourselves in a more 
competitive environment for our goals of creating larger 
exports from this country to other countries? And if we are----
    Mr. Solomon. A company is free----
    Mr. Scott [continuing]. Actually going to create new jobs 
in Washington State and new jobs in South Carolina, I don't 
understand how we arrive at the conclusion that simply someone 
has been harmed because there were no assets that were tangible 
to move from one location to the other location, and there were 
no jobs that were lost, no union jobs were lost at the current 
location. And there were 1,000 new jobs created at the North 
Charleston location.
    Mr. Gowdy [presiding]. The gentleman's time has expired. 
Mr. Solomon, you may answer if you would like to.
    Mr. Solomon. I understand your position, Congressman, and 
my guess is that Boeing might well present your position. But 
right now, what we decided is that the decision to build the 
second line would have been built in Everett, not in North 
Charleston absent the unlawful retaliation.
    Mr. Scott. So it is intangibles versus tangibles.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Regrettably, the gentleman's time has expired.
    On behalf of Chairman Issa, I want to thank all the members 
of the panel for your patience, for your time, for helping shed 
light on what is an important issue to everyone on the dais on 
both sides.
    With that, we will take a brief recess and prepare for our 
second panel.
    [Recess.]
    Chairman Issa [presiding]. This hearing will now come back 
to order. The chair now recognizes the second panel--the 
Distinguished and Honorable Governor of the State of South 
Carolina, Nikki Haley; the Honorable Alan Wilson, attorney 
general of South Carolina.
    Pursuant to the rules of this committee, we ask that all 
witnesses be sworn. Would you please rise and take the oath?
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect that all witnesses 
answered in the affirmative.
    Governor, Attorney General, you have only one problem with 
this wonderful facility, and that is that the amplification is 
limited, and you are facing away from the people around you. 
So, to the greatest extent possible, think of this as a rally--
[laughter]--without microphones.
    We now recognize the distinguished Governor of the State of 
South Carolina.

   STATEMENTS OF NIKKI HALEY, GOVERNOR OF THE STATE OF SOUTH 
  CAROLINA; AND ALAN WILSON, ATTORNEY GENERAL OF THE STATE OF 
                         SOUTH CAROLINA

                    STATEMENT OF NIKKI HALEY

    Governor Haley. Thank you.
    And thank you to the panel. Thank you for having us.
    Welcome to South Carolina. For those that are visiting, we 
hope that you will come back often.
    And thank you for allowing us the opportunity to speak with 
you today.
    You know, the issue that we are talking about right now is 
not just a South Carolina issue. This issue faces every 
Governor in every State in the country. And what I can tell you 
is what our story is.
    In 2009, we were facing great challenges. We had high 
unemployment. We had poverty issues. We had budget issues, just 
like every other State. And we were blessed to see a great 
American company decide to look at South Carolina to come here.
    And since that company has decided to create jobs here, we 
have seen a wealth of companies coming through here that have 
decided to come. And the reason they come to South Carolina is 
because the cost of doing business is low. We give them a great 
trained work force. Our quality of life is great. And we have 
companies that understand what it means to have a great 
relationship between their employers and their employees.
    And so, Boeing decided to come here. They created 1,000 
jobs, and it energized the State, and it energized our people 
in a way that we hadn't seen in a long time. And since then, 
we've seen lots of suppliers come in. We've seen the fact that 
Boeing, out of all the contracts they have, 91 percent of their 
contracts are with South Carolina businesses, which is a great 
testament to Boeing. It's a great testament to the businesses 
that it can create.
    But what I have also seen is, as Governor, my job is to do 
whatever I can to create jobs. I never thought that the 
President and his appointees at the National Labor Relations 
Board would be one of the biggest opponents that we would have.
    If you tell a great American company like Boeing that they 
cannot create jobs in South Carolina, all you are doing is 
incentivizing those companies to go overseas. And I am saying 
we can't have that. It's an attack on our employers in this 
country that are trying to keep business in America. It's an 
attack on the employees who appreciate the fact that they have 
jobs to go to. It's an attack on States that work hard to make 
sure that we keep the cost of doing business low, that we 
continue to have a pro-business environment, and that we do 
everything that makes America great.
    And I will tell you that I had--was blessed to be able to 
attend the ribbon-cutting of Boeing last week. And before we 
even took the stage, I had an employee come up to me and say, 
``I love my job. This is the best job I have ever had. And I'm 
now set.''
    When I was speaking to the people of the company and to all 
the visitors that were there and after I got off stage, the 
number of employees that came and said, ``Thank you for 
fighting for us. We love our jobs. We want to keep our jobs,'' 
it was overwhelming.
    And so, what I would say is I wish this was being held in 
the Boeing plant because they would speak for me, and I 
wouldn't have to say a word. But what I will tell you is while 
South Carolina is the first State to deal with this, while 
Boeing is the first company to deal with this, this needs to be 
the last time we deal with this. If we are going to prosper, if 
our economy is going to prosper, we cannot allow a Federal 
Government or unelected bureaucrats to come in and start 
pushing their way in on our American companies.
    As Governors, it makes it incredibly hard. For companies, 
it makes it incredibly hard. And we appreciate you taking the 
time and for your help in solving this problem.
    Thank you.
    Chairman Issa. Thank you, Governor.
    Mr. Attorney General.

                    STATEMENT OF ALAN WILSON

    Mr. Alan Wilson. Thank you, Mr. Chairman. I appreciate the 
invitation by you and this committee.
    This hearing is about far more than Boeing or South 
Carolina. In fact, it's even more about the unions. It's about 
an individual's right to allocate capital in the way that they 
believe best serves their business.
    As attorney general, it is my sworn duty, as South 
Carolina's chief legal officer, to defend our constitution, our 
State, and even our citizens. Fifteen attorneys general, 
representing both right-to-work and union States, have joined 
me in opposing the NLRB's complaint against Boeing. This 
complaint is without legal merit or precedent and threatens the 
company's $6.1 billion annual economic impact on South 
Carolina's economy.
    The draconian remedy, as some have called it, sought by the 
acting general counsel would allow the board to choose where a 
private business may locate its capital. Neither the board nor 
the Federal Government should make private business decisions. 
It is business that creates capital. It is capital that creates 
jobs, not the Government.
    Since its adoption in 1935, the National Labor Relations 
Act has never been so distorted that it would destroy a 
company's ability to make sound business decisions. The act 
imposes few constraints upon the free flow of capital to a 
right-to-work State. Legal precedents clearly demonstrate that 
Boeing's decision to expand to South Carolina is, in fact, 
lawful.
    Boeing did not eliminate union jobs or remove work from 
Washington State. It merely created new work here in North 
Charleston. Under board law, it must be shown that existing 
work, existing work was eliminated, subcontracted, or 
relocated. In fact, even legal experts who support the board 
concede this action is unprecedented.
    The board's audacity to file this complaint constitutes the 
shot heard round the business world. Companies around the globe 
are thinking twice about locating or expanding operations in 
this country, especially expansion into union States.
    Based on this complaint and recent memos, the board appears 
anxious to challenge any business expansion it deems 
detrimental to unions as unfair labor practice. One can only 
imagine the chilling effect this will have on business leaders' 
desire to expand capital and investment in our economy.
    Capital investment, as well as fundamental business 
decisions related to unionization, are not anti-union animus 
under Section 8(a)(3). While Boeing has not discouraged union 
membership in Everett, Washington, the Supreme Court has upheld 
legitimate business interest even though union membership may 
have been discouraged.
    How could a rational person legitimately disagree with 
Boeing's decision when looking at South Carolina's business 
climate, its labor stability, and its $900 million incentive 
package? The acting general counsel's theory under Section 
8(a)(3) that Boeing's actions are inherently destructive of 
unionization is nothing but an attempt to thwart a company's 
fundamental business judgment.
    That theory is inapplicable to Boeing's decision to expand 
here in South Carolina. In the words of the Supreme Court, a 
business may make a prediction as to the precise effects it 
believes unionization will have on its company. Such 
predictions, including those concerning work stoppages, are 
protected by the First Amendment.
    Any claim by the acting general counsel that statements 
made by Boeing officials were coercive and, thus, violate 
Section 8(a)(1) are patently incorrect. The last work stoppage 
cost Boeing $1.8 billion and caused customers to question 
whether or not to buy from Boeing ever again. Despite this 
fact, Boeing desired, thank goodness, to keep production in 
Washington State. But despite that desire, the union refused to 
assure labor stability.
    Furthermore, Boeing's collective bargaining agreement, 
which dates back to 1965, guarantees the company's right to 
determine where work is to be performed. The Supreme Court has 
recognized that management must have the flexibility to make 
business decisions without being second-guessed as unfair labor 
practice. The board is ignoring the rule of law in filing a 
complaint without precedent.
    The consequences of the board's actions, despite its 
intent, would abolish a company's discretion to make those 
business decisions. In 1788, Alexander Hamilton warned that the 
freedom of the States can be subverted by the Federal head and 
such subversion is repugnant to every political calculation.
    Our Founding Fathers went to great lengths to prevent an 
out-of-control Federal Government from nullifying private 
business decisions. We, too, must go to great lengths to ensure 
the Founders' promise is honored. The board's complaint is a 
step toward radically rewriting the NLRA. The board chairman 
has testified to Congress that she seeks to restructure the act 
as a collective action to redress economic inequalities.
    Unless deterred, this bureaucratic agency's action will 
further paralyze our Nation's economy. Action must be taken in 
the halls of Congress. I ask this committee to join me and 
fellow attorneys general around the country in an effort to 
preserve economic freedom in America.
    I thank you for this time, and I am happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Wilson follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.086
    
    [GRAPHIC] [TIFF OMITTED] T1079.087
    
    [GRAPHIC] [TIFF OMITTED] T1079.088
    
    [GRAPHIC] [TIFF OMITTED] T1079.089
    
    [GRAPHIC] [TIFF OMITTED] T1079.090
    
    Chairman Issa. I thank you.
    I will recognize myself for the first round of 
questionings. But before I do that, I would ask unanimous 
consent that our letter--or sorry, that the Governor's letter, 
along with other, a whole lot of other Governors, be placed in 
the record at this time.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1079.091
    
    [GRAPHIC] [TIFF OMITTED] T1079.092
    
    [GRAPHIC] [TIFF OMITTED] T1079.093
    
    Chairman Issa. Governor, like me, I understand you are not 
an attorney. But you do understand business very well.
    Governor Haley. Yes.
    Chairman Issa. If the decision by BMW were covered under 
the same thinking that NLRB is applying to Boeing, isn't it 
true that basically BMWs would all be produced in Germany?
    Governor Haley. That's exactly right. And BMW officials 
would tell you that.
    Chairman Issa. And if every company decides, is forced to 
decide that they have to remain where their entrenched union 
is, even if it means that they are unable to expand or take 
advantage of new and emerging markets, both here and around the 
world, wouldn't that be detrimental to this State? But wouldn't 
it also be detrimental to companies like General Motors that 
choose to set up factories in other countries, including China, 
so that they can expand to take advantage of those markets?
    Governor Haley. Yes. And Mr. Chairman, I actually think it 
would be more detrimental to places like Washington who don't 
have the right-to-work laws because they would basically be 
scared to ever go into those States because they'd think they 
could never expand outside of those States.
    Chairman Issa. You know, Governor, I will share something 
with you from my days in electronics. Electronics companies do 
not wisely set up in Germany because they had those laws. It 
was impossible to get rid of anything once you went into 
Germany.
    So I even was on the board when we acquired a company that 
had operations in Germany. We didn't operate it 1 day because 
if we operated it 1 day, we owned those employees.
    And it is really tough to say we are not going to ever 
touch that facility. Because if we did, we would own it. We 
couldn't get rid of it. Where we, quite frankly, would have 
been happy to try to reorganize it, but we didn't want to own 
it. That is what the people of Washington will face if this 
continues.
    General Wilson, I have a couple of questions for you, and I 
am going to deviate a little bit. You are also dealing with 
your right to a secret ballot here, aren't you, with the NLRB?
    Mr. Alan Wilson. That is correct.
    Chairman Issa. And in your knowledge as an attorney and 
from a Constitution standpoint, has there ever been any 
question about who conducts elections in the United States? 
Hasn't that--there has never been such a thing as a Federal 
election. Every State conducts its own elections pursuant to 
the Constitution, and isn't every State conducting secret 
ballots for all of their elected officials, including all of us 
on the dais?
    Mr. Alan Wilson. Well, absolutely. That is correct.
    Chairman Issa. So the NLRB is trying to, in fact, prevent 
you from doing something that has been done constitutionally 
for all elections, all elected officials since our founding?
    Mr. Alan Wilson. It is my personal belief, Mr. Chairman, 
that an individual's vote, whether it be for a Member of 
Congress or whether it be to unionize, that your vote be 
between you and your maker, not be between you and your 
employer or you and a mob--oh, I said ``mob''--union boss. It 
shouldn't be between anybody--[laughter.]
    Governor Haley. You can say ``mob.'' That's okay.
    Mr. Alan Wilson. My Freudian slip is showing.
    Chairman Issa. General Wilson, that may be popular here, 
but it might not fly in Seattle. But we understand.
    Mr. Alan Wilson. But we believe that if someone wants to 
unionize, they have that right, and they should be able 
afforded that right, and it should be reflected in their vote. 
Not by intimidation from the employer's perspective or a 
union's perspective.
    Chairman Issa. Mr. General, Governor, this morning I chose 
to go to Boeing and go to the new building. And as I am going 
through the line meeting with employees, no management picking 
who I walked up to, I ran into a woman named Tina. And she was 
very quiet, wasn't in management.
    And to my amazement, I managed to pick a woman who is 
fourth-generation Boeing employee, who, in fact, family roots 
are all in Seattle. And she told me something not because the 
company told her to, but because she simply believes it. That 
she is so excited to be working here, a place that she was not 
transferred. She chose to live here and simply got a job here 
as a fourth-generation Boeing employee.
    She told me, ``This place is the future. This is how we are 
going to continue to be Boeing in America for the rest of my 
life and the next generation.'' And I am not going to forget 
what she told me because she said something great about your 
State. She said this place is the future of avionics. This is a 
place where we can continue to export.
    And I think you should be very proud of Tina and all the 
work force I saw there today. And thank you for being a good 
working State and place where people choose to come from all 
over the country.
    Governor Haley. Thank you very much.
    Chairman Issa. With that, I recognize the ranking lady for 
her round.
    Mrs. Maloney. Thank you very much.
    And I appreciate very much your testimony. And 
congratulations on your election.
    Governor Haley. Thank you very much. Thank you.
    Mrs. Maloney. We were even watching it in New York with 
great interest.
    First of all, Governor, your claim to support a worker's 
right to join or not join a union, you have said. But here is a 
collection of quotes and statements made by you in recent 
months about unions, ``There is no secret I do not like 
unions.'' Second, ``Come show your support for a great South 
Carolina company. Say no to the unions bullying our 
businesses.'' ``We will continue to do everything we can, stand 
with the companies who understand what it means to take care of 
their employees without the interference of a meddlesome, self-
serving union.'' ``The more heavy-handed the unions are with 
us, the more we are going to talk smack back.''
    These quotes, I would say, is fair to say that they do not 
portray a neutral employee choice position. Rather, they 
clearly articulate an anti-union posture, which you have 
repeatedly communicated to workers in your State.
    So my question to you is do you think workers can make a 
free choice about joining or not joining a union, which they 
have a federally protected right to do, when the chief 
executive of their State is so aggressively anti-union and has 
publicly announced steps undertaken by the State to help 
companies keep unions out of South Carolina?
    Governor Haley. Thank you, Congresswoman. And welcome to 
South Carolina.
    Mrs. Maloney. Thank you.
    Governor Haley. Yes, I did make all of those statements. 
And the reason that I made those statements is when I see the 
NLRB doing this to Boeing, they give me great reason to say 
them. And I will tell you that South Carolina is not a State 
that appreciates being bullied. Our companies don't appreciate 
being bullied, and the unions have not shown us in any way that 
they have respect for our employees.
    What we have is a great relationship between our employers 
and our employees. It's a direct relationship. It's one that I 
will continue to protect under the right-to-work laws that we 
have.
    Any employee has the ability to join a union. What you will 
find in South Carolina is very few employees want to. And the 
reason they don't want to is because they love the companies 
they work for. You can go to our Boeing facility here, and they 
don't want to be taken by the unions. They want to be made sure 
that they have the right to choose and what they choose is not 
to be a part of a union.
    Mr. Scott. Would the gentlewoman yield for a moment?
    Mrs. Maloney. No, I will not.
    Mr. Scott. Are you sure?
    Mrs. Maloney. I will at the end of my time.
    Mr. Scott. Thank you, ma'am.
    Mrs. Maloney. First, well, the case that is being brought 
is on due process and the right to protest. It is a 
constitutionally protected right. That is what the case is.
    But Attorney General Wilson, you keep referring to the work 
in South Carolina as ``new work.'' But isn't it true that 
Boeing has publicly announced that it will close the surge 
line, one of two assembly lines in Washington State, when its 
South Carolina plant is fully operational?
    Mr. Alan Wilson. I'm not aware of that comment by Boeing, 
but I am aware of the line of logic that Representative Scott 
went in the last panel. How it's hard to transfer something 
that's not in existence and how it's hard to retaliate when 
you're adding jobs to a company in State number one, which is 
Washington State.
    So I'm not aware of the comment that you claim Boeing made, 
but I am aware of the result is that Boeing has netted 2,000 
jobs. South Carolina has netted 1,000 jobs.
    Mrs. Maloney. Also, I would like to ask you, as an officer 
of the court, you must disapprove law breaking as a predicate 
for economic development. And as an officer of the court, do 
you believe it is appropriate for a governmental entity to 
advocate law breaking as an economic development strategy?
    Mr. Alan Wilson. I'm sorry. Say that again.
    Mrs. Maloney. Well, if Boeing has broken the law and 
illegally retaliated against Washington State workers, wouldn't 
you, as an officer of the court, have to oppose such actions?
    Mr. Alan Wilson. Well, if Boeing has retaliated by adding 
2,000 jobs in South Carolina, 1,000 jobs in Washington State, 
$6.1 billion investment in this State, then I hope Boeing 
continues to retaliate against us and every other State in the 
country because we need more retaliation.
    [Applause.]
    Mrs. Maloney. Do you support due process and the right to 
protest----
    Mr. Alan Wilson. I support----
    Mrs. Maloney [continuing]. Protected under the Constitution 
of our country?
    Mr. Alan Wilson. I support the due process of the 1,000 
jobs that are trying to be taken from North Charleston, SC.
    Mrs. Maloney. The case is about due process and the right 
to protect the right of workers to protest, which has been a 
right that has led to many protections for working people in 
America.
    My time has expired.
    Chairman Issa. Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman. I will yield to my 
distinguished colleague from the great State of South Carolina, 
Mr. Tim Scott.
    Mr. Scott. Thank you, Congressman.
    May I ask the Governor just a couple of questions real 
quick?
    Governor, you and I served in the State house together. Is 
that correct?
    Governor Haley. Yes, we did.
    Mr. Scott. You were there for 6 or 8 years?
    Governor Haley. Six.
    Mr. Scott. So when the Boeing plant opened in North 
Charleston, you were a member of the State house?
    Governor Haley. That's right.
    Mr. Scott. The employees at the Boeing plant decided to 
unionize. Did you try to stop that?
    Governor Haley. I did not.
    Mr. Scott. So you are fully aware of the fact that 
employees of the Boeing plant decided to start a union. But 
yet, even though all your comments were just brought to our 
attention, you did nothing to stop them from having the 
exercise of their constitutional rights?
    Governor Haley. We have strong people in South Carolina. 
They're going to do whatever they want to do.
    Mr. Scott. And you support that?
    Governor Haley. I absolutely support that.
    Mr. Scott. Are you sure?
    Governor Haley. I--with everything I've got, and I won't 
make any more comments like that. But yes, I do. [Laughter.]
    Mr. Scott. Thank you, ma'am.
    Mr. Gowdy. Welcome, Governor Haley.
    Governor Haley. Thank you.
    Mr. Gowdy. Thank you for your leadership on this issue, and 
your presence today, I hope, shows the rest of the world how 
important this issue is to our State. So thank you for being 
here.
    Governor Haley. Thank you very much.
    Mr. Gowdy. To my former colleague Attorney General Wilson, 
thank you for your service to our State and your service as a 
very distinguished prosecutor for a number of years.
    Mr. Alan Wilson. Thank you.
    Mr. Gowdy. Just for the record, if it matters, surge line 
doesn't open until 2012. So I think we have yet another 
pleonasm of something closing before it opens. But there have 
been several of those here today.
    General Wilson, it strikes me that this case is three-
dimensional. There is a practical aspect, which the Boeing 
employee so eloquently set out earlier this morning. There is a 
patently transparently political aspect to this. And there is a 
legal aspect to it.
    The political aspect, to me, is this administration is no 
longer content with merely class warfare or generational 
warfare. We are now going to inject regional warfare into the 
equation, pitting workers who desperately need work in 
Washington with those who desperately need it in South 
Carolina. That is the politics of it.
    I want to talk to you for a second about the legal part of 
it. Have you come across any case law in your exemplary career 
as an attorney that suggests you cannot state a historical fact 
without having a complaint lodged against you by the NLRB?
    Mr. Alan Wilson. I'm not aware of any.
    Mr. Gowdy. It is a historical fact that there have been 
work stoppages in Washington State. Correct?
    Mr. Alan Wilson. That is correct.
    Mr. Gowdy. And the mere recitation of a historical fact, 
God help us if that constitutes an actionable incident by the 
NLRB. Would you agree?
    Mr. Alan Wilson. I do.
    Mr. Gowdy. I wonder if it is okay if Boeing executives 
think it, so long as they just don't say it? [Laughter.]
    I mean, can they think, you know, we have had four work 
stoppages, and we have a customer who is threatening to no 
longer do business with us. Is it okay to think it? Is that 
where they messed up, that they actually said something?
    Mr. Alan Wilson. Representative, it is my opinion, based on 
Mr. Solomon's testimony, that it seems to be a thought police 
type situation here. Somebody that runs a company, and whether 
you're the president of Boeing or the chief executive officer 
of Bubba's Feed and Seed, if you have a business, you should be 
able to talk to your employees freely and openly about the 
consequences of actions.
    Union employees have every right to strike. That is a 
protected right that I agree with. But they do not have a right 
to escape the consequences of their actions.
    If a Boeing executive says we cannot afford work stoppages, 
that should send a reasonable person that has some modicum of 
common sense, that should send a signal to them that if they 
can't afford to do something, that means their business model 
is going to implode and jobs will dissipate. So I don't 
begrudge any company for taking whatever actions are necessary 
if it's a legitimate business interest.
    The Supreme Court has held that you are allowed to make 
comments under First Amendment. As a CEO of a company, you're 
allowed to make First Amendment statements reflecting facts. 
Work stoppages, $1.8 billion it cost us, we can't continue to 
operate like this. Supreme Court protects that kind of speech.
    What I find interesting is, is that--and even I know we saw 
a clip earlier. The representative showed us a clip----
    Mr. Gowdy. Well, I want to ask you about that because Timmy 
took all my time, which I hope he will give me some of it back. 
[Laughter.]
    I want to ask you about that because you are a very 
distinguished prosecutor. You are familiar with the rule of 
completeness. We could never get away with what the NLRB did in 
their complaint, which is hijack certain out-of-context quotes, 
put it in a complaint, and then treat it like it is serious.
    You have seen the full context to the quotes, right?
    Mr. Alan Wilson. I have read the full context of the 
statements. I do not recall every last point in the statements, 
but I do----
    Mr. Gowdy. If we were in a court of law--because I have 
heard a lot about due process and fundamental fairness. If we 
were in a court of law, that entire video would have been shown 
under the rule of completeness because it is patently unfair to 
select out certain quotes. Is that true?
    Mr. Alan Wilson. I certainly would have objected to it 
without being----
    Mr. Gowdy. Yes, and your objection would have been 
sustained. With that, my time is up.
    Chairman Issa. Thank you.
    The delegate from the District of Columbia, Ms. Norton?
    Ms. Norton. And may I remind the former U.S. attorney that 
a complaint is a short statement, only the barest statement of 
what you mean to prove. And a complaint would not contain the 
whole document. That document, sir, as you well know, would 
come out at trial. And we have to avoid a trial here.
    I welcome both of these officers of the State. While your 
own testimony might be predictable, protecting your State, your 
testimony is certainly understandable.
    Governor Haley, you certainly have my congratulations. So 
far as I know, you are the first woman elected in her own right 
as Governor of a Southern State. That is a breakthrough and one 
that women of every conceivable political party would want to 
salute.
    Governor Haley. Thank you.
    Ms. Norton. I will have no questions for you. You are not a 
lawyer.
    Mr. Wilson, you and I belong to something of the same 
fraternity, so to speak, because we are both members of the 
bar.
    Mr. Alan Wilson. Yes, ma'am.
    Ms. Norton. I have tried to confine my statements to 
process because of the capacity of a hearing by a political 
body to taint the process which is now in operation. You would 
not want that either because you surely want this to be over, 
and we don't want to have bases for other matters to be alleged 
in the nature of a complaint during this complaint.
    On outcome, I just want to say for the record, I am not 
sure whether you are aware. But in cases involving capital 
investment and the National Labor Relations Act are among the 
most difficult cases under the act. Most assuredly, they are 
not immune from the act, but they are saturated with facts and 
very difficult.
    Moreover, I want to say for the record that while there has 
been discussion of nothing but remedy here, which State should 
get the jobs, the remedy section of this action would be heard 
entirely differently from the violation section of the action. 
Isn't that true, General Wilson?
    That even if there were a violation, there is no certainty 
that the remedy would be what the prosecutor, in this case the 
counsel, wishes, which is the jobs themselves in one form or 
fashion to be in South Carolina--or sorry, Washington State?
    Mr. Alan Wilson. I beg your forgiveness, Representative 
Norton. I don't believe I understand the question. Are you 
asking me as it pertains to the remedy, what the remedy would 
be or that the remedy----
    Ms. Norton. I am saying would not the remedy, the question 
of remedy be quite different from the question of whether or 
not there is a violation. So that we don't confuse it. Even if 
there is a violation of the National Labor Relations Act, it 
does not follow that the remedy would be to extract the jobs 
from one location to the other?
    Mr. Alan Wilson. That----
    Ms. Norton. There could be any number of different remedies 
that the trier of fact could insist upon. Isn't that not the 
case?
    Mr. Alan Wilson. Representative, my fear is that there 
could be other remedies. But the effect of the complaint, what 
the complaint asked for is, in essence, that the Boeing plant 
be closed and be moved back to Washington State.
    My concern is the chilling effect that this action is 
having not just across South Carolina and Washington State, but 
throughout the United States and throughout the world.
    Ms. Norton. Mr. Wilson, every time that a prosecutor--I am 
sorry, my time is limited--brings a case, he will chill 
something. And often the prosecutor loses. This is America 
after all. What the prosecutor wants and what the law finds are 
two different things very often. That is the difference between 
us and the rest of these people who don't believe in due 
process.
    You say the act--in your prepared statement, the act 
imposes few constraints upon the free flow of capital to a 
right-to-work State. I couldn't agree with you more.
    Legal precedents clearly demonstrate that Boeing's decision 
to expand to South Carolina is lawful. Would you not agree that 
though you argue that as a prosecutor--that is a typical 
prosecutorial statement--would you not agree that that is a 
question for the trier of fact?
    Mr. Alan Wilson. Representative Norton, I have met with 
numerous business officials throughout the State and country, 
and the punitive measures right now are being realized----
    Ms. Norton. I am asking you, sir, is that not a question--I 
understand your view. I am not taking exception to your view. 
My question is, is that statement that it clearly--that 
Boeing's decision is lawful, is that not a question for the 
trier of fact?
    Mr. Alan Wilson. I would dispute to the degree that when 
it's prosecutorial misconduct, it should be challenged at the 
forefront.
    Ms. Norton. Are you alleging that there has been 
prosecutorial----
    Mr. Alan Wilson. Absolutely.
    Ms. Norton. Would you name what the misconduct has been?
    Mr. Alan Wilson. Had you not been here for the last 20, 30 
minutes? So----
    Ms. Norton. Have you not been here for the last 4 hours?
    Mr. Gowdy [presiding]. The gentlelady's time----
    Ms. Norton. What is the prosecutorial misconduct?
    Mr. Gowdy. The gentlelady's time has expired.
    Ms. Norton. You allege misconduct by the prosecutor. Name 
the misconduct. Name the misconduct.
    Mr. Gowdy. The gentlelady will suspend. The gentlelady's 
time has expired. At this point----
    Ms. Norton. That is a terrible allegation to make 
unsupported. And for you to let him get off without telling us 
what the misconduct is, Mr. Chairman----
    Mr. Gowdy. The gentlelady from the District of Columbia is 
happy to seek someone to yield to her if she would like to 
continue her time, but she is out of time.
    The chair would now recognize the gentleman from the great 
State of Texas, Mr. Farenthold.
    Ms. Norton. You have allowed everybody else to respond to 
the question, and you are not allowing him to respond to the 
question. I asked the question in time, and the----
    Mr. Gowdy. I would tell--I would advise--the gentlelady 
will suspend.
    Ms. Norton [continuing]. Chairman has allowed, once the 
question was asked in time, the question, has allowed the 
response to be made.
    Mr. Gowdy. The gentlelady will suspend. The gentlelady will 
suspend.
    If you would like to seek time from another Member, you are 
welcome to do so.
    Ms. Norton. I seek time from you, Mr. Chairman, for 
fairness.
    Mr. Gowdy. It is not my time.
    Ms. Norton. To get a response to my question.
    Mr. Gowdy. I don't need any lectures. I don't need any 
lectures on fairness, with all due respect.
    Ms. Norton. You are getting one right here, Mr. Chairman.
    Mr. Gowdy. Well, I don't need one from anybody to my right.
    Ms. Norton. You need them from a lot of people.
    Mr. Gowdy. Mr. Farenthold, the gentleman from Texas, you 
are recognized.
    Mr. Farenthold. Thank you very much.
    I am going to take this back up to the cruising altitude of 
30,000 feet. [Laughter.]
    And move up to the big picture questions.
    Governor Haley, can you talk for a second about some of the 
things that you have done here in South Carolina to create jobs 
and some of the laws and policies you have in effect to do 
that?
    Governor Haley. Yes. Thank you, Congressman, and welcome to 
South Carolina.
    Mr. Farenthold. Thank you.
    Governor Haley. We appreciate you being here.
    You know, South Carolina, since I've taken office in 
January, we have recruited, created, expanded 7,000 additional 
jobs to South Carolina just since January. And the reason is 
the cost of doing business is low. We just passed stronger tort 
reform. We've got a director of labor that has just reduced 
fees and regulations for our businesses.
    We understand what it means to have a pro-business State. 
So it's workers comp reform. It's tort reform. It's making sure 
our taxes are low. It's making sure that we stay competitive. 
It's making sure that we provide companies the trained work 
force that they need.
    That's why they come to South Carolina. And then they see 
our beaches and our mountains, and that's just an added given. 
[Laughter.]
    Mr. Farenthold. Now I assume that, as a politician and a 
Governor, you kind of follow what is going on in Washington, 
DC. You said you have reasonable taxes. I think we have a call 
for higher taxes from Washington, DC.
    I think you said you were trying to reduce regulations. I 
think we can see that all Government agencies in Washington 
right now are trying to increase. You have tort reform that you 
passed. We are not talking about that in D.C. And you are 
talking about a spirit of cooperation with businesses. And if 
you look at Washington, I think you will see the exact 
opposite, this case being one of adversarial.
    So you all are creating jobs at a very high rate, as we are 
in the State of Texas. We have basically got the same climate 
that you have. And in fact, the past few years, 37 percent of 
the jobs created in this country were created in Texas with 
just those things--low taxes, low regulation, tort reform, and 
cooperation.
    Do you think there might be a concerted effort on the part 
of the Government to see that States like South Carolina and 
Texas have a hard time creating jobs because it disproves some 
of the things that the current administration is trying to 
implement in Washington, DC?
    Governor Haley. Well, first of all, I will tell you that 
Texas is one that I enjoy competing with, and I continue to 
tell Governor Perry I'm taking all his jobs away from him. But 
having said that, I will tell you that with all due respect, 
Washington is dysfunctional.
    And everything that I have tried to do as a Governor, 
whether it is to fight healthcare, D.C. has continued and the 
President has continued to fight and push mandates on us. 
Whether it is to create jobs, he is continuing to allow cases 
like the NLRB to create problems with our companies. Whether it 
is with illegal immigration, he has gotten in the way of 
allowing us to enforce that.
    And so, I will tell you that with a Governor, whether it's 
Texas or South Carolina, we have a job to do, and that's to 
create jobs. And we have gotten no help from Washington.
    Mr. Farenthold. Now, and I appreciate that. I am glad we 
are on the same path to realizing that job creation is really 
the most important thing in this country right now. Every 
person that we get back to work saves us money, brings money in 
as new taxpayers, and grows the economy. And I am hoping we can 
get the Federal Government to act more like South Carolina and 
Texas than we are right now.
    That being said, you all can have the 787, we are looking 
at the 797s. Anybody here from Boeing, we would love to have 
you in Texas. [Laughter.]
    With that, I will yield to----
    Governor Haley. Stay away from that. We're not going to let 
that happen.
    Mr. Farenthold. With that, I will yield the rest of my time 
to the acting chair.
    Mr. Gowdy. I thank the gentleman from Texas.
    General Wilson, you received a question trying to link up 
the allegations of the complaint with the remedy sought. Would 
you agree with me that the remedy sought is illustrative of the 
intent of the complainer? You and I didn't seek death penalty 
for auto theft, did we?
    Mr. Alan Wilson. That is correct.
    Mr. Gowdy. We don't seek death penalty for shoplifting. The 
remedy sought has to be commiserate with the alleged offense. 
And the fact remains that the NLRB sought essentially a death 
penalty for this State when they fashioned their remedy. Do you 
agree with that?
    Mr. Alan Wilson. Absolutely.
    Mr. Gowdy. All right. I would at this point recognize the 
gentleman from Ohio, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Governor, General, there are aspects of this discussion 
that can get very heated. I understand there is 1,000 jobs at 
stake here, and I respect that people in South Carolina are 
fighting for their constituents because that is what you are 
supposed to do.
    I am just concerned, though, in the heat of the moment that 
statements don't go out that later on could, if not corrected 
or amended could be the basis for distractions. And so, I just 
want to ask to respectfully ask General Wilson the statement 
about prosecutorial misconduct, is that a global statement? Or 
I just want to make sure that we don't get ourselves in a 
situation where you are vulnerable to sanctions because of a 
charge that may not be substantiated.
    Mr. Alan Wilson. My--my comments were global in nature and 
not meant to be specifically targeted toward anyone's integrity 
or intent. But----
    Mr. Kucinich. Okay. I just--thank you.
    Mr. Alan Wilson. I can expound.
    Mr. Kucinich. No, that is what I was hoping to hear.
    Mr. Alan Wilson. Okay.
    Mr. Kucinich. I want to say that there were a couple of 
questions that were asked by my colleagues here that I had 
sought answers to, and I am just going to use this time to go 
over the territory. There has been a suggestion that Boeing was 
only transferring new work, not work that already exists in 
Washington.
    And I had inquired of the IAM, and what they have said is 
that Boeing is running two assembly lines in Washington, a line 
that can produce seven 787s per month and a surge line that is 
intended to produce three 787s per month, although it has 
capacity for more. And Boeing has announced it will close the 
surge line if and when it starts building the three 787s per 
month in South Carolina. Clearly, a transfer of existing work.
    And the next question I had related to the statement about 
Boeing having added jobs in Puget Sound so that the workers 
there haven't been harmed. What I have learned is that is not 
true. That as Boeing has admitted to the press, its strategy to 
outsource all 787 parts and subassemblies, only doing final 
assembly in Washington, has been a supply chain disaster.
    The company has had to hire a large temporary work force to 
rework a large number of partially assembled 787s, as the 
company still tries to complete them. Once those problems are 
solved, the extra jobs in Puget Sound will vanish, and all of 
the jobs in the surge line will also go away if and when Boeing 
opens up that line in South Carolina and that Boeing's 
retaliation in Washington will have caused a major loss of work 
and jobs.
    So I just wanted to get that on the record. I want to ask 
the Governor, Governor, do you believe that workers have a 
right to organize?
    Governor Haley. Yes.
    Mr. Kucinich. Do they have a right to collective 
bargaining?
    Governor Haley. Yes.
    Mr. Kucinich. And do they have a right to strike?
    Governor Haley. Yes.
    Mr. Kucinich. And you are familiar with the National Labor 
Relations Act?
    Governor Haley. Yes.
    Mr. Kucinich. And you are familiar that employers are 
forbidden to engage in coercion, intimidation, retaliation?
    Governor Haley. Yes.
    Mr. Kucinich. And if you had learned that an employer had 
engaged in retaliation for a statutorily permitted action on 
the part of workers, as Governor, you would want to see the law 
enforced, would you not?
    Governor Haley. Well, I think it's--you know, you have to 
see what retaliation is. What I will tell you is that what I 
have witnessed is absolutely un-American. And when we----
    Mr. Kucinich. What do you mean, un-American?
    Governor Haley. When you have a National Labor Relations 
Board that is getting--that is actually going against a great 
American company like Boeing and telling them that they cannot 
create jobs, the precedent that that sends to any company 
looking to create jobs in this country, the precedent that that 
sends to any company looking to create jobs in any other State 
is terrible.
    And the fact that we have allowed this----
    Mr. Kucinich. Governor, I have 30 seconds left.
    Governor Haley. Yes?
    Mr. Kucinich. I just want to say this. That the issue here 
is whether or not Boeing retaliated against workers for 
exercising their protected rights against the law. We could 
agree that Boeing is a good company. But the question is in 
this case, it is a narrow question. Did they violate the 
National Labor Relations Act by threatening to leave one area 
in exchange, you know--and if they did not get their way?
    Now this becomes relevant because, let's face it, somewhere 
down the line, you, as Governor, could be faced with a case 
that could be similar if someone wants to threaten to move jobs 
out of South Carolina. Because you have jobs here, big 
industries, that people later on just pulled out. And you know, 
corporations have a lot of power in that regard.
    I want to--thanks for your indulgence. Thank you, Your 
Honor and General Wilson. Thank you.
    Governor Haley. Thank you.
    Mr. Chairman, could I just comment on that quickly?
    Mr. Kucinich. My time has expired.
    Mr. Gowdy. The gentleman's time has expired. Perhaps 
Representative Scott would be gracious enough to allow you to 
expound on that when his time.
    But at this point, I would recognize the gentleman from 
Iowa, Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    And I was struck by the irony of your comment accusing the 
Obama administration and President Obama of regional warfare. 
We are, after all, in Charleston, SC, and Charleston knows a 
thing or two about regional warfare. There was a little 
incident here 150 years ago that gave new meaning to the 
concept of regional warfare.
    But I think the important thing that I need to share with 
you, Mr. Chairman, and with the Governor is that on behalf of 
all Iowans, I take great pride in the fact that Big Red was 
returned to the State of South Carolina and the Citadel after 
careful and meticulous preservation by the Iowa Historical 
Society. So that is one positive thing that can bring us all 
together. [Laughter.]
    Governor, let me start with you. Representative Scott made 
a comment in his opening statement accusing the NLRB of using 
your tax dollars in an unprecedented way. My question for you 
is did the State of South Carolina use State taxpayers' dollars 
in an unprecedented way to lure Boeing's production line here?
    Governor Haley. No.
    Mr. Braley. So the question I am asking you is Boeing the 
biggest welfare queen of the State of North Carolina, or has 
someone received more than $900 million in incentives from the 
State to locate here?
    Governor Haley. I mean, you know, as we do with all 
companies when we're trying to get them to come to South 
Carolina, we compete with all of your States to try and get 
them to come. And so, sometimes we do use economic development 
incentives to do that or job incentives to do that.
    Mr. Braley. Right. And my question is, is this $900 million 
package the biggest incentive given to anybody to locate here 
in the State of South Carolina that you know of?
    Governor Haley. Yes.
    Mr. Braley. One of the questions that I have for you, Mr. 
Attorney General, is based upon a statement that was in your 
prepared remarks, where you indicated it was your duty as South 
Carolina's chief legal officer to defend your constitution, 
your State, and your citizens. Do you remember that?
    Mr. Alan Wilson. I do.
    Mr. Braley. Did you also swear an oath to defend the 
Constitution and the laws of the United States when you were 
sworn in as attorney general?
    Mr. Alan Wilson. I did.
    Mr. Braley. Okay. So even though your job is as attorney 
general of the State of California--South Carolina, forgive me.
    Mr. Alan Wilson. That's okay. Good State.
    Mr. Braley. You also have a corresponding duty to recognize 
that South Carolina--at least since it came back into the 
Union--has operated within a Federal system where there are 
corresponding duties and responsibilities of elected officials 
here in the State?
    Mr. Alan Wilson. That is correct.
    Mr. Braley. And one of the things that you also did was you 
cited Alexander Hamilton in your statement that you shared with 
us today.
    Mr. Alan Wilson. That is correct.
    Mr. Braley. I found that ironic also because Alexander 
Hamilton founded the Federalist Party and founded the National 
Bank and also the Federal Reserve, which a lot of people in 
South Carolina aren't happy about right now.
    So I guess my question for you is do you understand that in 
a Federal system that there are Federal agencies who have a 
responsibility to operate within that constitutional framework 
and do their duty free of interference from outside parties in 
order for that to be fundamentally fair to all of the parties 
involved?
    Mr. Alan Wilson. May I state my opinion?
    Mr. Braley. Yes.
    Mr. Alan Wilson. My opinion is, is that the law was being 
misapplied by the National Labor Relations Board. It is my duty 
to protect and defend the Constitution when the Constitution 
itself is not being attacked, and I believe that is what I'm 
doing, Representative.
    Mr. Braley. Well, you made a statement in an opinion piece 
you published in The State on Wednesday, June 1, 2011, where 
you accused the President of being silent. And you wrote, ``The 
President's silence is consent, akin to a parent in a grocery 
store refusing to control an unruly child. As a result, the 
labor board has been given the green light to wage war on 
commerce and industry.''
    Do you remember writing that?
    Mr. Alan Wilson. Yes, I do.
    Mr. Braley. Does Governor Haley have the legal authority to 
control your actions and tell you what to do, as head of the 
Justice Department of the State of South Carolina?
    Mr. Alan Wilson. She does not.
    Mr. Braley. So would you expect President Obama to have the 
ability to control his administrative agency officials in 
carrying out their responsibility under the Constitution?
    Mr. Alan Wilson. Representative, two of the board members 
are recess-appointed members who circumvented Senate 
confirmation, including the acting general counsel. Second----
    Mr. Braley. Well, wait a second. That happens all the time.
    Mr. Alan Wilson. Am I allowed to answer?
    Mr. Braley. A recess appointment is not something that is 
bizarre or unusual. It is a practical reality of the political 
consequence of confirmation in the Senate, isn't it?
    Mr. Alan Wilson. Representative, the President, who I want 
to see be successful, because when he fails, we all fail. But 
his actions are leading us down the wrong path.
    Mr. Braley. That is not my question.
    Mr. Alan Wilson. Let me explain.
    Mr. Braley. My question for you is, isn't that a practical 
consequence of the difficult confirmation process that we have 
seen get increasingly partisan for any Senate confirmation? The 
fact that there are recess appointments does not in any way 
diminish the fact that they have a sworn obligation to uphold 
the law of the United States.
    Mr. Alan Wilson. Representative, I would like to see the 
President speak out. He doesn't have to get involved in the 
independent agencies' actions. But when his own Chief of Staff 
voted on the board of Boeing unanimously to locate Boeing to 
South Carolina, you all are all saying that the Chief of Staff 
of the President of the United States violated Federal law.
    I would like the President of the United States either to 
defend his Chief of Staff's actions or at least say that the 
actions of this board could have dire economic consequences for 
all States.
    Mr. Braley. Which Chief of Staff are you talking about?
    Mr. Alan Wilson. Mr. Daley.
    Mr. Braley. Bill Daley?
    Mr. Alan Wilson. Yes, sir.
    Mr. Braley. Okay. So when you talk about his 
responsibility, are you talking about his role as Chief of 
Staff to have an obligation to direct the President to take 
action?
    Mr. Alan Wilson. These were Mr. Daley's actions prior to 
Chief of Staff. But if my chief of staff violated Federal law, 
I would certainly speak out against it.
    The point is, Representative, that I would like to see the 
President--the President is out there, talking about building 
manufacturing jobs through private and public cooperation and 
partnerships. But at the same time, he has an agency out there 
that is doing everything contrary to that effort.
    And I would like to see the President get out there and 
talk about when you do things that cause CEOs of businesses to 
not want to come to States, this hurts union States more than 
right-to-work States. This hurts us all.
    I would like to see the President speak to that. Whether or 
not he gets involved with Mr. Solomon's case is irrelevant, and 
I respect the independence of that agency, and I respect the 
President for staying out of that. But speaking out on the 
effects that this could have on our global economy is 
paramount.
    Mr. Braley. Well, I am glad we agree that it is important 
to maintain the integrity of the adjudicative process, and I 
yield back my time.
    Mr. Gowdy. Thank you. The gentleman's time has expired.
    In light of our colleague's comments about the rich and 
provocative at times history of our great State, it is my 
pleasure to recognize my colleague from Charleston, Mr. Tim 
Scott. [Laughter.]
    Mr. Scott. Thank you.
    As our chairman has referred to me as ``Congressman 
Timmy''--[laughter]--I do not want this to be taken away from 
my time, but my good friend on the end there started a process 
of asking questions that really compared apples to oranges. So 
let me make sure that I have this straight.
    Mr. Wilson, did the Governor appoint you?
    Mr. Alan Wilson. No.
    Mr. Scott. Did the President appoint Mr. Solomon?
    Mr. Alan Wilson. Yes.
    Mr. Scott. Governor, does the attorney general of South 
Carolina serve at your pleasure or the people's pleasure?
    Governor Haley. No, at the people's pleasure.
    Mr. Scott. Are you sure?
    Governor Haley. I am positive.
    Mr. Scott. Are you all sure?
    [Audience response.]
    Mr. Scott. We are sure. Okay. Does Mr. Solomon serve at the 
pleasure of the President? Would you concur?
    Mr. Alan Wilson. Yes.
    Mr. Scott. Okay. I wanted to make sure that we had those 
facts straight. When we are talking about the return on 
investment of the $900 million that South Carolina invested--
not gave or spent, but invested--in Boeing, is it unprecedented 
for us to reserve a return on investment of $14 for every $1 
invested, according to the Post and Courier's analysis of the 
economic development package.
    So, question. If you had an opportunity to invest a dollar 
and get $14 back, would you do it every day, every other day, 
or once a week? [Laughter.]
    Because I sure want to understand this.
    Governor Haley. We would do it all the time.
    Mr. Scott. Okay. So if we can get another one of those 
tomorrow, on Saturday----
    Governor Haley. I'm on it.
    Mr. Scott [continuing]. You'll come into work, and you'll 
sign on?
    Okay. Let us not get confused by the mumble-jumble of 
politicians. When you think about this as a simple return on 
investment, the Boeing Corp.'s decision to invest their 
resources in our soil is, in fact, a solid return on investment 
for the people of South Carolina.
    Governor Haley. Yes. And Congressman, I will tell you this. 
It doesn't take an attorney general. It doesn't take a rocket 
scientist to look at this and see that this is flat-out wrong. 
This isn't wrong for South Carolina. This is wrong for every 
State in the country.
    And I will tell you that the actions that are taken in 
reference to this National Labor Relations Board move will 
impact our country forever. This is serious. I don't want any 
other Governor to have to go through what we're having to go 
through.
    And I will tell you that when you were talking about 
retaliation?
    Mr. Scott. Yes.
    Governor Haley. The retaliation is coming from the 
President--retaliation is coming from the NLRB. It is not 
coming from Boeing.
    Mr. Scott. I am glad you brought up the case of this global 
economy. When you think about our competition in this State, 
are we simply competing against Georgia or North Carolina or 
Washington State? When your top prospects call into your office 
looking for an opportunity to do business anywhere, do they 
simply say it is either you guys or North Dakota or Texas?
    Governor Haley. I'm right now talking with international 
companies. We're talking to companies from India. We're talking 
to companies from Germany. We're talking to several companies 
outside of the United States.
    This doesn't just keep them from coming to South Carolina. 
This keeps them from even looking at any State in our country 
when they see that something like this can happen.
    Mr. Scott. With a 9.1 percent national unemployment, with a 
double-digit unemployment in South Carolina, does this feel 
like a joke to you?
    Governor Haley. This is not funny.
    Mr. Scott. Thank you.
    Mr. Wilson, when you take into consideration the comments 
made about the constitutional responsibilities of your office, 
do you take into consideration the fact that the 9th and the 
10th amendments of our Constitution allows for States to have 
autonomy over what creates a workable atmosphere for employment 
opportunities?
    Mr. Alan Wilson. I do.
    Mr. Scott. So do you believe that the right-to-work laws 
that are in our State help us or hurt us?
    Mr. Alan Wilson. I believe they help us.
    Mr. Scott. Thank you, sir.
    No further questions.
    Mr. Gowdy. I want to thank, Madam Governor, thank you again 
for your presence, your testimony, and your leadership on this 
issue.
    Mr. Attorney General, wonderful to see you. I am not sure 
why your father didn't want to be present for it, but we will 
investigate that and get back to you on it. [Laughter.]
    On behalf of all of us on both sides, thank you for being 
here.
    And to my colleagues who are not from South Carolina, thank 
you for visiting our State. And if there is anything Tim or I 
or Joe or anyone else could do to make the remainder of your 
stay more hospitable, please let us know.
    With that, we are recessed.
    [Whereupon, at 3:43 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1079.094

[GRAPHIC] [TIFF OMITTED] T1079.095

[GRAPHIC] [TIFF OMITTED] T1079.096

[GRAPHIC] [TIFF OMITTED] T1079.097

[GRAPHIC] [TIFF OMITTED] T1079.098

[GRAPHIC] [TIFF OMITTED] T1079.099

[GRAPHIC] [TIFF OMITTED] T1079.100

[GRAPHIC] [TIFF OMITTED] T1079.101

[GRAPHIC] [TIFF OMITTED] T1079.102

[GRAPHIC] [TIFF OMITTED] T1079.103

[GRAPHIC] [TIFF OMITTED] T1079.104

[GRAPHIC] [TIFF OMITTED] T1079.105

[GRAPHIC] [TIFF OMITTED] T1079.106

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
